<html>
<title> - STATE OF THE RURAL ECONOMY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       STATE OF THE RURAL ECONOMY

=======================================================================

                                 HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 6, 2018

                               __________

                           Serial No. 115-13
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-966 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7710071837140204031f121b075914181a59">[email&#160;protected]</a>                          
                         


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

GLENN THOMPSON, Pennsylvania         COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia,             DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
BOB GIBBS, Ohio                      JAMES P. McGOVERN, Massachusetts
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas, Vice Ranking 
ERIC A. ``RICK'' CRAWFORD, Arkansas  Minority Member
SCOTT DesJARLAIS, Tennessee          MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
DOUG LaMALFA, California             CHERI BUSTOS, Illinois
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
TED S. YOHO, Florida                 STACEY E. PLASKETT, Virgin Islands
RICK W. ALLEN, Georgia               ALMA S. ADAMS, North Carolina
MIKE BOST, Illinois                  DWIGHT EVANS, Pennsylvania
DAVID ROUZER, North Carolina         AL LAWSON, Jr., Florida
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             JIMMY PANETTA, California
JAMES COMER, Kentucky                DARREN SOTO, Florida
ROGER W. MARSHALL, Kansas            LISA BLUNT ROCHESTER, Delaware
DON BACON, Nebraska
JOHN J. FASO, New York
NEAL P. DUNN, Florida
JODEY C. ARRINGTON, Texas

                                 ______

                   Matthew S. Schertz, Staff Director

                 Anne Simmons, Minority Staff Director

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     2
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma; 
  on behalf of Todd Lafferty, Co-Chief Executive Officer and 
  General Counsel, Wheeler Brothers Grain Company, LLC, submitted 
  statement......................................................    45
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     3

                                Witness

Perdue, Hon. Sonny, Secretary, U.S. Department of Agriculture, 
  Washington, D.C................................................     4
    Prepared statement...........................................     5
    Submitted questions..........................................    45

 
                       STATE OF THE RURAL ECONOMY

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2018

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:30 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Thompson, 
Goodlatte, Lucas, King, Gibbs, Austin Scott of Georgia, 
Crawford, Denham, LaMalfa, Davis, Yoho, Allen, Bost, Rouzer, 
Abraham, Kelly, Comer, Marshall, Bacon, Faso, Dunn, Arrington, 
Peterson, David Scott of Georgia, Costa, Fudge, McGovern, Vela, 
Lujan Grisham, Kuster, Bustos, Maloney, Plaskett, Adams, Evans, 
Lawson, Panetta, Soto, and Blunt Rochester.
    Staff present: Bart Fischer, Callie McAdams, Jackie Barber, 
Matthew S. Schertz, Mollie Wilken, Anne Simmons, Evan 
Jurkovich, Keith Jones, Kellie Adesina, Liz Friedlander, 
Matthew MacKenzie, Troy Phillips, Nicole Scott, and Carly 
Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. I will call our hearing to 
order. Please join me in a brief prayer.
    Heavenly Father, we thank you, Lord, for the privilege of 
serving this great nation. We ask, Lord, for wisdom and 
discernment and understanding as we go about these difficult 
decisions that affect so many lives across this country and 
livelihoods as we work on the decisions that this Committee has 
responsibility for. We ask, Lord, that we are worthy of the 
blessings of being able to do this. We ask for your help and 
assistance. Forgive us for our failures. We ask this in Jesus' 
name. Amen.
    This hearing of the Committee on Agriculture entitled, 
State of the Rural Economy, will come to order.
    I would like to thank our star witness, the Honorable Sonny 
Perdue, for being with us today. It is customary for the 
Secretary of Agriculture to help the Committee kick off a new 
year. This hearing is an opportunity for the Secretary to offer 
his assessment of the rural economy and to visit with Members 
of the Committee about the full range of issues impacting rural 
America and agriculture.
    Of course, it does not take a hearing to appreciate the 
hardships that rural America and our nation's farmers and 
ranchers face today. Over the last 4 years, we have witnessed 
the steepest decline in net farm income since the Great 
Depression. Producers, who always operate on thin margins, are 
struggling to cover their costs. Thankfully, we have taken some 
important steps in lightening their load.
    The Administration has been moving to unburden farmers and 
ranchers of unnecessary regulations that cost producers a 
fortune and put them in legal limbo. And, late last year, 
Congress approved and the President signed into law a tax 
reform bill that provides meaningful tax relief for American 
agriculture. Regulatory and tax relief are already helping 
America's farmers and ranchers by reducing their cost of doing 
business. In turn, this means more economic activity and jobs 
on the farm and on main street America.
    Unfortunately, on the earning side of the equation, the 
news has not been nearly as favorable. Natural disasters and 
high and rising foreign subsidies, tariffs, and non-tariff 
trade barriers have resulted in lost crops and chronically 
depressed prices. And uncertainty over the direction of trade 
has exacerbated the anxiety in rural America because the U.S. 
farmer and rancher depends so much on access to global markets 
to make ends meet.
    Crop insurance has been an extraordinary success story, 
providing critical risk management to farmers and obviating the 
need for Congress to approve ad hoc disaster assistance over 
the past decade. However, the most costly hurricanes on record 
have shed some light on the areas where we need to make 
improvements so crop insurance can serve, as an example, the 
Florida orange producer as well as the Iowa corn farmer. Some 
weaknesses in the farm bill's safety net have also become 
apparent, especially for our nation's cotton and dairy farmers.
    We on this Committee are going to do our best to address 
these and other issues through pending legislation and a strong 
new farm bill that the President has declared he wants sent to 
his desk on time.
    Toward this end, Mr. Secretary, you developed and presented 
some very thoughtful and constructive principles to help guide 
us in charting the course toward that new farm bill, and I want 
thank you for that.
    On the trade front, the ball is naturally more in the 
Administration's court than it is in ours. I appreciate the 
Administration's strong desire to strike better deals for the 
United States and to reduce, if not eliminate, our trade 
deficit. But, as you know, Mr. Secretary, there is also a deep 
concern in the countryside that none of the gains we have made 
in the way of market access for farmers and ranchers should be 
lost in the process. In this regard, you have been a critical 
friend and advocate and, again, I thank you for that.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I would like to thank our star witness, the Honorable Sonny Perdue, 
for being with us today.
    It is customary for the Secretary of Agriculture to help the 
Committee kick off a new year.
    This hearing is an opportunity for the Secretary to offer his 
assessment of the rural economy and to visit with Members of the 
Committee about the full range of issues impacting rural America and 
agriculture.
    Of course, it does not take a hearing to appreciate the hardships 
that rural America and our nation's farmers and ranchers face today.
    Over the last 4 years, we have witnessed the steepest decline in 
net farm income since the Great Depression.
    Producers, who always operate on thin margins, are struggling to 
cover their costs.
    Thankfully, we have taken some important steps in lightening their 
load.
    The Administration has been moving to unburden farmers and ranchers 
of unnecessary regulations that cost producers a fortune and put them 
in legal limbo.
    And, late last year, Congress approved--and the President signed 
into law--a tax reform bill that provides meaningful tax relief for 
American agriculture.
    Regulatory and tax relief are already helping America's farmers and 
ranchers by reducing their cost of doing business.
    In turn, this means more economic activity and jobs on the farm and 
on Main Street USA.
    Unfortunately, on the earning side of the equation, the news has 
not been nearly as favorable.
    Natural disasters and high and rising foreign subsidies, tariffs, 
and non-tariff trade barriers have resulted in lost crops and 
chronically depressed prices.
    And, uncertainty over the direction of trade has exacerbated the 
anxiety in rural America because the U.S. farmer and rancher depends so 
much on access to global markets to make ends meet.
    Crop insurance has been an extraordinary success story, providing 
critical risk management to farmers and obviating the need for Congress 
to approve ad hoc disaster over the past decade.
    However, the most costly hurricanes on record have shed some light 
on areas where we need to make improvements so crop insurance can serve 
the Florida orange producer as well as the Iowa corn farmer.
    And, some weaknesses in the farm bill's safety net have also become 
apparent, especially for our nation's cotton and dairy farmers.
    We on this Committee are going to do our level best to address 
these and other issues through pending legislation and a strong new 
farm bill that the President has declared he wants sent to his desk on 
time.
    Toward this end, Mr. Secretary, you developed and presented some 
very thoughtful and constructive principles to help guide us in 
charting the course toward that new farm bill, and I thank you for 
that.
    On the trade front, the ball is naturally more in the 
Administration's court than it is in ours.
    I appreciate the Administration's strong desire to strike better 
deals for the United States and to reduce if not eliminate our trade 
deficit.
    But, as you know, Mr. Secretary, there is also a very deep concern 
in the countryside that none of the gains we have made in the way of 
market access for farmers and ranchers should be lost in the process.
    In this regard, you have been a critical friend and advocate and, 
again, I thank you.
    With that, I would like to recognize my friend, the Ranking Member, 
for his opening statement.

    The Chairman. With that, I recognize my friend, the Ranking 
Member, for comments he would like to make. Collin.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and welcome, 
Secretary, back to the Committee. We appreciate you being here.
    As those of us here today are well aware, commodity prices 
have dropped since the farm bill was last reauthorized, and 
milk prices are also softening as we speak. I am very concerned 
that if prices continue to fall and we have any kind of average 
year or below average year, that we could be in some real 
trouble.
    This is one of the reasons that if I had my way, I would 
like to see a farm bill that had an improved safety net going 
into this situation, but with no new money, I don't know how we 
are going to do that.
    Last year, the President's budget called for $231 billion 
in cuts to the mandatory farm bill programs. You were not yet 
at USDA when the budget was released, but I hope that we will 
be able to see some of your influence in the new budget that is 
going to come out next week, and I am not sure anybody in the 
Administration, other than yourself, has much of an 
understanding of what goes on in agriculture. So we appreciate 
what you are trying to do, and you are the voice of reason at 
the table. I wish you luck with that.
    As I said, I appreciate your efforts to give us some 
guidance in writing the new farm bill, and I hope you will work 
with us to write a bill that provides an adequate safety net 
and other tools for our farmers and ranchers, and we look 
forward to working with you on that.
    I yield back.
    The Chairman. I thank the gentleman. The chair would 
request other Members submit their opening statements for the 
record so our witness may begin his testimony and ensure there 
is ample time for questions.
    I would like to welcome to the witness table this morning 
the Honorable Sonny Perdue, Secretary of the U.S. Department of 
Agriculture, Washington, D.C. Mr. Secretary, the floor is 
yours.

 STATEMENT OF HON. SONNY PERDUE, SECRETARY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Secretary Perdue. Thank you, Mr. Chairman, Ranking Member 
Peterson, and distinguished Members of the Committee. It is an 
honor to be with you today. I have submitted for the record 
comments, but you all know it comes as no surprise that we are 
in a very different situation then when you last contemplated a 
farm bill regarding commodity prices. The facts are I wish 
there was better news, but there is a lot of stress and a lot 
of duress on the farms today. The only saving grace for that is 
we are talking about a constituency that is probably the most 
resilient among Americans, and the most optimistic, or they 
wouldn't continue to do what they do year in and year out by 
putting a lot of the risk of their equity in the ground, hoping 
for that next good crop.
    The state of the rural economy is fragile. It obviously 
depends on some things that you all will struggle with in this 
environment, as Ranking Member Peterson talked about. That was 
a heavy burden of the budget in this time period in trying to 
create a farm bill with a better safety net in light of the 
financial situation that we find ourselves.
    But the good news is that, for the most part, the 2014 Farm 
Bill was a good pathway forward. As you all indicated and 
everyone recognizes, there are a couple of sectors there, 
particularly dairy and cotton, that didn't fare as well, and I 
know that you all in this Committee having been working toward 
a solution on that, and I am hopeful that we can have a viable 
solution for those two sectors, as well as our specialty crops 
and others that have fared well.
    By and large, a safety net is really the goal of the farm 
bill, as well as providing for those who don't have the 
resources for enough food. But there are a lot of challenges 
out there. We have lower commodity prices, as you well know, 
and frankly, there is a very specific example of that for those 
of you in grain sorghum country, we know just with a mention of 
China considering ante upping and countervailing duty taxes, 
the cash price on sorghum dropped over $1, which was 25 
percent, just yesterday on the cash prices. So we see how 
fragile we are from a trade perspective, how dependent our ag 
economy is on trade, as well as the labor issue. And I know 
that Chairman Goodlatte and others have mentioned a permanent 
legal workforce in agriculture that is especially needed. The 
good news is we have made some progress on the deregulatory 
environment and will continue to do that as we seek out 
comments and opinions from our producers and those interested 
in the industry about how we produce our food and how we can do 
better in the regulatory environment.
    Certainly, a lot of progress has been made there, but our 
farmers are more leveraged than they were 5 years ago, and that 
is a challenge. There is rising debt, not to the level 
necessarily of the 1980s, but concerning particularly for those 
beginning farmers, the ones that didn't quite have the 
advantage of the 2008-2013 run up in commodity prices.
    All of those are challenges that we see, going forward. We 
have submitted to you our principles on the farm bill. By and 
large, you have a good format to begin with, and I want to 
applaud, Mr. Chairman, you and the Committee for getting out 
around the nation over this last year to hear directly from 
producers over the things that they believe have been working 
for them, some of the things they believe might have been 
working against them, and to understand how we can do better.
    As you may know, I have followed many of you in your 
districts and I have been there, and I appreciate the 
hospitality. We are at 32 states in 9 months, and hearing a lot 
of genuine comments there. As we all know, farmers are not very 
timid when it comes to telling us what is on their minds, and 
they have done so. We have a good understanding of where they 
are, but also our consumers. We were in a food bank in 
Pennsylvania the other day and saw a great network of providing 
for people who don't have enough food, and the great news about 
America, it is a great generous and compassionate nation, and 
the farm bill does a wonderful job in that as well.
    So with those comments, I will try to reserve my answers to 
be concise, and if I am not informative enough, you are welcome 
to ask for comments on the record and I will be happy to submit 
those. So thank you. We are glad to be with you here today.
    [The prepared statement of Mr. Perdue follows:]

Prepared Statement of Hon. Sonny Perdue, Secretary, U.S. Department of 
                     Agriculture, Washington, D.C.
    Good morning, Chairman Conaway, Ranking Member Peterson, and 
distinguished Members of the Committee. It is an honor to be with you 
today. I thank you for the opportunity to appear before you to provide 
an update on the status of our rural and agricultural economy. Not 
quite a year ago, I was provided the honor and privilege of taking the 
helm as Secretary of Agriculture. Since then, USDA has made 
breakthroughs in agricultural trade, moved to reduce burdensome 
regulations, produced the report from the Task Force on Agriculture and 
Rural Prosperity,* responded to an inordinate number of natural 
disasters, and battled through an extreme fire season, among other 
notable achievements. USDA employees have worked tirelessly to serve 
the American people during this time. As we look ahead, we will 
continue our efforts to be the most effective, efficient, and customer 
focused department in the entire Federal Government.
---------------------------------------------------------------------------
    * The report entitled, Report to the President of the United States 
from the Task Force on Agriculture and Rural Prosperity, has been 
retained in Committee file. It can be accessed online at: https://
www.usda.gov/sites/default/files/documents/rural-prosperity-report.pdf.
---------------------------------------------------------------------------
The State of the U.S. Rural Economy
    In updating you on the state of the rural and agricultural economy 
today, I can report that farmers are continuing to adjust to low 
commodity prices using a number of strategies, such as by borrowing, 
which has increased overall debt-to-asset levels in the farm sector. 
However, while conditions are testing the resilience of the American 
farmer, the Trump Administration and USDA are focused on creating 
economic conditions where they can prosper. With the help of farm 
disaster programs and crop insurance, many producers are recovering 
from some difficult times following a series of disastrous droughts, 
wildfires, and hurricanes in many parts of the country.
    The U.S. farm sector has faced declining prices and farm incomes 
following the near record levels reached in 2014, leaving some 
producers more vulnerable to the production disruptions posed by 
natural disasters. Net farm income has fallen nearly 50 percent from 
its peak in 2013, as most commodity prices have fallen over the past 4 
years while global stock levels have rebounded with several years of 
record production. We project continuing low commodity prices and trade 
challenges in the face of large global supplies and a relatively strong 
dollar for the coming year. As a result, many farmers will continue to 
face tight bottom lines, even negative returns in some cases. In 2016, 
for example, almost half of wheat farmers had negative cash farm income 
and higher levels of debt relative to assets compared to other farm 
sectors. We are seeing the effects of those conditions across the 
agricultural economy, as farmers cut costs by spending less on inputs, 
services, and capital investments.
    While crop receipts have fallen with lower commodity prices, 
returns to the livestock sector have been mixed with some sectors 
seeing higher margins in 2017 relative to 2016. Overall, the record 
levels of crop and livestock production we have seen over the past few 
years, while contributing to continuing low prices, have helped to keep 
farm incomes from falling further. We saw the largest soybean crop ever 
in 2017, corn production was the second highest ever, and cotton yield 
hit a record high. However, some of our competitor countries have seen 
similarly high production numbers. We expect global production to 
continue to expand and that will keep stocks abundant and maintain the 
pressure on prices.
    Producers have reduced spending on inputs and tapped a combination 
of savings, loans, and off-farm income and assets to remain in business 
in the face of continuing stresses in the farm economy. After 4 years, 
however, those resources are dwindling for many. Farm debt has also 
been rising more rapidly over the last 4 years, increasing by 22 
percent since 2013--up from $315 billion to $385 billion according to 
USDA data--and reaching levels last seen in the 1980s. Demand for 
commercial farm operating loans continues to increase in most regions 
despite a steady, if slow, rise in interest rates on agricultural 
loans. The Farm Service Agency's (FSA) Farm Loan Program has seen a 
slight annual decline in lending following the record 2016/17 harvests, 
but loan demand still remains historically high. While delinquencies 
have been stable, FSA has seen a significant increase in restructuring 
of direct loans to assist producers during these difficult economic 
times.
    Relatively firm land values have kept farmer debt-to-asset levels 
low by historical standards, and relatively low interest rates, despite 
their upward trend, continue to keep the cost of borrowing low. But 
those average values mask areas of greater vulnerability. The strength 
of land values varies geographically, with some regions seeing greater 
weakness even as others hold steady or see modest increases. Debt-to-
asset ratios vary among farm businesses by commodity specialization, 
with some commodity specializations showing a much larger share of 
highly leveraged operations. About one-in-three poultry farms, one-in-
four wheat farms, and one-in-five cotton farms are highly or very-
highly leveraged, making them more vulnerable to low prices and 
impacting their ability to recover from natural disasters.
    Commodity programs authorized under farm bill commodity title 
provisions have transitioned over the last 3 decades from coupled 
income and price support measures linked with supply management to 
decoupled income support measures focused on risk management and 
market-oriented planting flexibility. The primary goal of Federal farm 
programs is to provide an effective financial safety net for farmers 
and ranchers to sustain viable production of food, fiber, and fuel in 
the face of changing market and production conditions without 
distorting markets.
    The farm safety net created by the 2014 Farm Bill has provided 
significant support to producers as commodity prices and farm incomes 
have fallen steadily over the last 4 years. The Agriculture Risk 
Coverage (ARC) and Price Loss Coverage (PLC) programs are a vital part 
of the farm safety net and assist producers struggling from low 
commodity prices and natural disasters. Payments under ARC and PLC 
programs have totaled $20 billion for crop years 2014-2016, with $6.9 
billion for crop year 2016 alone provided to assist producers in Fiscal 
Year 2018.
    Producers continue to find the farm safety net less effective for 
dairy and cotton than for other commodities. Cotton production in 2017 
was high as a result of increased acres and high yields in some areas. 
However, not all producers have benefited, as disasters have affected 
some crops, and the increased production has kept pressure on prices 
for cotton lint and especially for cotton seed, a co-product that can 
help producers meet costs. The 2014 Farm Bill removed cotton as a 
covered commodity, and therefore it is not eligible for payments under 
ARC or PLC. The cotton STAX program was the tradeoff, but due to lower 
cotton prices, it has provided lower revenue protection than producers 
expected at the time of the bill's passage. Similarly, some dairy 
producers have faced milk prices near or below the cost of production, 
but because of the way in which margins are calculated, payments have 
been infrequent under the current Margin Protection Program (MPP). 
Premiums and fees paid by producers have been consistently higher than 
payments under the Program. Last fall, USDA provided producers 
participating in MPP the opportunity to opt-out of the Program in 
calendar year 2018, and we saw a roughly 75 percent drop in 
participation, showing producers were unhappy with the lack of support 
provided by the program.
    In addition to low commodity prices, the vagaries of weather made 
last year a challenge for many of our agricultural producers. U.S. 
farmers faced a large number of natural disasters in 2017, including 
wildfires, hurricanes, tornadoes, droughts, and severe freezes. In 
those impacted areas, USDA responded with all the tools available to 
it, making timely payments for loss claims on crop insurance policies 
and through FSA's suite of disaster assistance programs for noninsured 
crops, livestock, trees, vines, and bushes. USDA also provided 
assistance to producers to install conservation practices on land 
damaged by severe weather, and continues to provide help to communities 
to restore and enhance damaged watersheds and floodplains.
Positioned for Success
    Since I was named Secretary of Agriculture, my goal has been to 
better position USDA to support agricultural producers, while providing 
increased accountability to American taxpayers. Through the OneUSDA 
call to action, we are creating a new operating model for USDA to 
better serve its customers. Through OneUSDA, I am challenging every 
employee of the Department to help and listen to those who rely upon 
the Department and to be transparent, consistent, and objective in all 
decision making. As a result, we will modernize USDA operations and 
service delivery; reduce burdens on our stakeholders; serve customers; 
and ensure responsible use of the Department's resources. During the 
past year, we have initiated the realignment of a number of offices in 
the spirit of OneUSDA to improve customer service and maximize 
efficiency. These actions reshaped certain offices into more logical 
and commonsense organizational structures.
    The newly established Farm Production and Conservation (FPAC) 
Mission Area has put a stronger focus on domestic agricultural issues 
and has provided the foundation for achieving a simplified one-stop 
shop for USDA's primary customers, the men and women farming, ranching, 
and foresting across America. Through this organization, USDA supported 
an effective safety net for the more than two million agricultural 
producers who provide food and fiber to over 300 million Americans, and 
millions more around the globe. This was never more critical than 
during the response to the destructive hurricanes in 2017. In response 
to Hurricanes Harvey, Irma and Maria, thousands of FPAC staff were 
deployed across hurricane-stricken regions to provide timely assistance 
through various emergency conservation, clean-up, and indemnity 
programs while authorizing additional time flexibility for reporting 
losses and completing requests for assistance. In the aftermath of 
these disasters, FPAC employees successfully coordinated the handling 
of over 7,500 requests for assistance or claims, providing the billions 
of dollars in much needed assistance mentioned earlier. In addition, 
our employees assisted Puerto Rico with a one-of-a-kind program that 
provided feed for dairy cattle to prevent herd losses, following 
virtually complete destruction of feed sources across the island.
    While creating the FPAC mission area, it became apparent that there 
were redundancies and inefficiencies in FPAC mission support activities 
and that improvements in program delivery could be realized. To reduce 
these redundancies and improve operations, we have created a Farm 
Production and Conservation Business Center. Through the FPAC Business 
Center we have begun to centralize administrative and information 
technology operations of the three agencies, which will ultimately 
strengthen customer service and capitalize on efficiencies across FSA, 
NRCS, and the Risk Management Agency (RMA). An immediate success was 
the consolidation of assets that allowed us to dispose of more than 
1,000 under-utilized vehicles, generating a $3 million annual reduction 
in operating costs. In addition, we are making it easier for producers 
to interact with FPAC employees by modernizing IT systems, creating 
agency-specific portals for customers to learn about, leverage, and 
enroll in our programs. More specifically, we are in the process of 
building an online portal for our tech-savvy customers to access their 
crop insurance records and their FSA and NRCS contracts, maps, and 
more. Just last week we unveiled the new home for that portal, 
Farmers.gov, which we are continuing to build upon. America's 
foresters, farmers and ranchers have overcome significant barriers to 
ensure a reliable food supply, support job growth, and promote economic 
development. We will continue to improve our systems to make us more 
responsive to their needs so we can optimize the time we spend with 
producers in our county offices.
    The goal of the creation of the Under Secretary for Trade and 
Foreign Agricultural Affairs is to ensure that American producers are 
well equipped to sell their products and feed the world. International 
trade continues to be an engine for economic growth in rural America, 
with U.S. farm and food exports reaching $140.5 billion for the 2017 
Fiscal Year, the third-highest total on record. Agricultural exports 
generate 20 percent of U.S. farm income, stimulate rural economic 
activity and support more than a million American jobs. USDA has worked 
tirelessly to find, open, and expand markets for the high-quality food, 
fuel, and fiber that our farmers and ranchers produce. USDA scored 
significant trade victories, including the reentry of U.S. beef to 
China after a 13 year hiatus; signing of a phytosanitary import 
protocol for U.S. rice to enter China; easing of regulations on U.S. 
citrus into the European Union; gaining approval for new biotech 
varieties in China; resumption of U.S. distillers dried grains into 
Vietnam and China; reentry of U.S. chipping potatoes into Japan; and 
lifting of South Korea's ban on imports of U.S. poultry.
    The creation of the Assistant to the Secretary for Rural 
Development (RD) recognizes that the economic health of small towns 
across America is crucial to the future of the agricultural economy. 
Rural America possesses inherent strengths that can be used for 
enhancing the prosperity of its people and its contribution to the 
economic well-being of the nation. It is our responsibility to use our 
resources and expertise to work with these communities to achieve a 
higher quality of life for the 46 million rural Americans. In 2017, 
USDA made significant investments in rural infrastructure, including 
telecommunications, e-connectivity, water and sewer systems, and 
critical community facilities that have improved educational, health, 
and economic opportunities for rural residents. These vital services 
are part of the foundation of a high quality of life and enable 
communities to overcome the effects of remoteness and low population 
density by connecting them to the rest of the world through high-speed 
Internet. In addition, USDA--along with a wide range of Federal 
departments and agencies--is focused on crafting an effective response 
to the opioid epidemic, including supporting rural communities in 
designing and building solutions based on their own specific needs and 
strengths.
    Through these and other actions, USDA has improved customer service 
across all the mission areas of the Department. In the area of food and 
nutrition services, we responded to the concerns of local school 
nutrition workers and students by restoring flexibility to serve 
wholesome, nutritious, and tasty meals in schools across the nation. We 
successfully eradicated New World screwworm after the first detection 
in the U.S. in 35 years, quickly eradicated outbreaks of Low Pathogenic 
Avian Influenza and High Pathogenic Avian Influenza, made significant 
progress toward the elimination of two cotton pests, reduced the 
destruction caused by feral swine, and reduced sanitary and 
phytosanitary barriers to trade. In, 2017, these efforts helped 
preserve trade valued at $7.5 billion through resolution of foreign 
market access issues related to U.S. export detainment, technical 
barriers to trade, and other impediments to trade. We have proposed 
regulations to modernize the inspection of swine slaughter and egg 
products. These changes will improve the effectiveness of the 
inspection process and allow for more rapid adoption of food safety 
technologies. Our cutting-edge research program has led to improved 
productivity and competitiveness, while improving crop quality, 
nutritional value, and food safety. As we look ahead to 2018, USDA will 
continue our efforts to be the most effective, efficient, and customer-
focused department in the entire Federal Government.
    In addition, the Forest Service responded to an extreme fire 
season, deploying over 28,000 personnel and spending $2.4 billion 
fighting fires across the nation. To ensure we can continue to meet our 
responsibility for fighting fires and preserving the health of National 
Forests, we need to find a legislative solution to address the way the 
Forest Service funds wildland firefighting. We need a new arrangement 
to end the practice that requires the agency to routinely transfer 
money from prevention programs to combat ongoing wildfires. For 
example, in 2017, Forest Service wildfire suppression spending 
necessitated transfers of $527 million from other programs. 
Historically, these transfers have been repaid in subsequent 
appropriations, however, ``fire borrowing'' impedes the missions of 
land management agencies to reduce the risk of catastrophic fire and 
restore and maintain healthy functioning ecosystems that are vital to 
our rural communities. We are close to a legislative solution to our 
forest management and fire funding challenges, and it is important to 
bring it across the finish line.
    We have a strong plan in place to ensure we continue to improve our 
service to rural America. On my first day in office, President Trump 
signed an Executive Order, directing me to lead the Interagency Task 
Force on Agriculture and Rural Prosperity. We were charged with 
identifying legislative, regulatory, and policy changes to promote 
agriculture, economic development, job growth, infrastructure 
improvements, technological innovation, energy security, and quality of 
life in rural America. On January 8, 2017, we released the findings of 
the task force. The report is the result of an intensive 6 month effort 
made by 22 Federal agencies in partnership with state, local, and 
Tribal leaders. The recommendations centered on five areas: E-
Connectivity, Quality of Life, Rural Workforce, Technology, and 
Economic Development. To ensure that the findings of this report have a 
meaningful impact on rural America, we are moving forward to implement 
the initial recommendations and to expand stakeholder participation. 
While we have many actions we can take at USDA, we realize it will take 
the entire Federal family to make a difference. We are working closely 
with the White House so that we can move forward together in making a 
lasting impact in rural America.
    While the Task Force worked tirelessly to identify solutions to the 
problems plaguing our rural communities, there is more work ahead. No 
doubt, rural America has struggled under burdensome regulations, but 
this Administration is taking aggressive action to reduce confusing, 
burdensome regulations that impair productivity, and USDA is not an 
exception. As we visit with producers and rural residents in the coming 
year, we will continue to listen intently and communicate to our 
Federal partners if there are regulations that are unfair or overly 
burdensome. Whether it is duplicative paperwork or unneeded process 
requirements, we want to hear about it. Regulations must be consistent, 
affordable, and practical enough for our customers and staff to 
continue doing the important job of feeding, fueling, and clothing the 
nation. Under President Trump's leadership, this Administration has 
made it a top priority to get rid of excessive regulations, and has 
eliminated 22 existing regulations for every new one that comes on the 
books. At the President's direction, regulatory reform is one of the 
cornerstones of the Department's strategies for creating a culture of 
consistent, efficient service to customers, while reducing burdens and 
improving efficiency. USDA has identified 27 final rules that will be 
completed in Fiscal Year 2018 and result in over $56 million in annual 
savings.
    We are strengthening our work with our interagency partners in 
furtherance of these efforts. At USDA, we are driving interagency 
coordination to ensure that we can address the challenges that affect 
our stakeholders, whether they are under our jurisdiction or beyond. 
For example, just last week, we signed an agreement with FDA aimed at 
making the oversight of food more efficient and effective by bolstering 
our coordination. The formal agreement outlines efforts to increase 
interagency collaboration, efficiency and effectiveness on produce 
safety and biotechnology activities, while providing clarity to 
manufacturers. We also are working closely with the Environmental 
Protection Agency, Department of Interior and other Federal partners to 
coordinate on issues such as pesticides, endangered species, Federal 
land management and other cross-cutting issues.
    Finally, I would like to turn to the drafting of the 2018 Farm 
Bill. I recognize that it is the job of Congress to write the farm 
bill. But we at USDA stand ready to provide whatever counsel Congress 
may request or require. Over the past 9 months, my team and I have 
traveled to more than 30 states to talk with the men and women who are 
at work in the fields on America's farms and ranches to produce the 
food and fiber that feeds and clothes every American, and also much of 
the world. Whether we were holding town halls, or listening sessions in 
fields, machine sheds, community colleges, or front yards, we were 
gathering good advice. We heard about what works from previous farm 
bills, and what is not working right now. We took what we heard from 
the field and have developed a set of principles to aid Congress in 
drafting the next farm bill. I have already shared those principles 
with you and I hope they serve you well as you go about your important 
work of drafting the 2018 Farm Bill. I would like to submit a copy of 
the principles for the record. As you move forward with crafting the 
farm bill, it is important that it be fiscally responsible in 
consideration of our future generations, and reflect the 
Administration's budget goals. As you deliberate, it is imperative that 
you improve the tools the Department has to address pressing and 
difficult situations faced by our producers, and to provide us the 
authority to react quickly and provide additional assistance if current 
market conditions persist or worsen, within a streamlined budget 
constraint.
Conclusion
    The economic success of the United States today and in the future 
depends on optimizing rural America's productivity and quality of life. 
Unleashing the potential and ingenuity of rural communities is an 
integral part of making America great again, and will help build a 
safe, strong, and proud America. Our whole nation's prosperity is 
intrinsically tied to rural America's ability to thrive in the new 
global economy, using its abundant natural resources to provide food, 
fiber, forest products, energy, and recreation to the world.
    I look forward to working with you to implement policies that will 
harness the innovative spirit of the hard-working men and women in 
rural America and help them improve the quality of life and economic 
opportunities across America.
    I would be happy to answer any questions at this time.
                               Attachment
2018 Farm Bill & Legislative Principles
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The U.S. Department of Agriculture (USDA) uniquely touches the 
lives of all Americans daily, through the food they eat, the fibers 
they wear, and the fuels they use. And U.S. producers make it all 
possible. Agriculture Secretary Sonny Perdue's motto to `Do Right and 
Feed Everyone' has served as the inspiration to travel to more than 30 
states across the nation, hearing from the men and women on the front 
lines of U.S. agriculture. Through these interactions, USDA developed a 
set of principles to share with Congress for consideration as they 
craft the farm bill and other legislation beneficial to the 
agricultural economy. USDA stands ready to provide counsel to Congress, 
and strives to be the most efficient, most effective, and most 
customer-focused department in the Federal Government. Our goal is to 
be responsive to the American people and improve services while 
reducing regulatory burdens on USDA customers.
USDA supports legislation that will . . .
Farm Production & Conservation
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Damaging winds and record rainfall from Hurricane Harvey 
        ruined hay bales, fences, and farm equipment on Jack Carraway's 
        Liberty County, Texas farm.

  <bullet> Provide a farm safety net that helps American farmers 
        weather times of economic stress without distorting markets or 
        increasing shallow loss payments.

  <bullet> Promote a variety of innovative crop insurance products and 
        changes, enabling farmers to make sound production decisions 
        and to manage operational risk.

  <bullet> Encourage entry into farming through increased access to 
        land and capital for young, beginning, veteran and 
        underrepresented farmers.

  <bullet> Ensure that voluntary conservation programs balance farm 
        productivity with conservation benefits so the most fertile and 
        productive lands remain in production while land retired for 
        conservation purposes favor more environmentally sensitive 
        acres.

  <bullet> Support conservation programs that ensure cost-effective 
        financial assistance for improved soil health, water and air 
        quality and other natural resource benefits.
Trade & Foreign Agricultural Affairs
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          A cargo ship.

  <bullet> Improve U.S. market competitiveness by expanding 
        investments, strengthening accountability of export promotion 
        programs, and incentivizing stronger financial partnerships.

  <bullet> Ensure the farm bill is consistent with U.S. international 
        trade laws and obligations.

  <bullet> Open foreign markets by increasing USDA expertise in 
        scientific and technical areas to more effectively monitor 
        foreign practices that impede U.S. agricultural exports and 
        engage with foreign partners to address them.
Food, Nutrition & Consumer Services
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          U.S. Secretary of Agriculture Sonny Perdue tours the Hunger 
        Task Force vegetable farm, which administers USDA commodity 
        programs and services area food pantries and food banks in and 
        around Franklin, WI.

  <bullet> Harness America's agricultural abundance to support 
        nutrition assistance for those truly in need.

  <bullet> Support work as the pathway to self-sufficiency, well-being, 
        and economic mobility for individuals and families receiving 
        supplemental nutrition assistance.

  <bullet> Strengthen the integrity and efficiency of food and 
        nutrition programs to better serve our participants and protect 
        American taxpayers by reducing waste, fraud and abuse through 
        shared data, innovation, and technology modernization.

  <bullet> Encourage state and local innovations in training, case 
        management, and program design that promote self-sufficiency 
        and achieve long-term, stability in employment.

  <bullet> Assure the scientific integrity of the Dietary Guidelines 
        for Americans process through greater transparency and reliance 
        on the most robust body of scientific evidence.

  <bullet> Support nutrition policies and programs that are science 
        based and data driven with clear and measurable outcomes for 
        policies and programs.
Marketing & Regulatory Programs
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Carrots.

  <bullet> Enhance our partnerships and the scientific tools necessary 
        to prevent, mitigate, and where appropriate, eradicate harmful 
        plant and animal pests and diseases impacting agriculture.

  <bullet> Safeguard our domestic food supply and protect animal health 
        through modernization of the tools necessary to bolster 
        biosecurity, prevention, surveillance, emergency response, and 
        border security.

  <bullet> Protect the integrity of the USDA organic certified seal and 
        deliver efficient, effective oversight of organic production 
        practices to ensure organic products meet consistent standards 
        for all producers, domestic and foreign.

  <bullet> Ensure USDA is positioned appropriately to review production 
        technologies if scientifically required to ensure safety, while 
        reducing regulatory burdens.

  <bullet> Foster market and growth opportunities for specialty crop 
        growers while reducing regulatory burdens that limit their 
        ability to be successful.
Food Safety & Inspection Services
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          A U.S. Department of Agriculture (USDA) Inspector shows 
        Agriculture Secretary Sonny Perdue around the processing floor 
        of the Triumph Food pork processing facility.

  <bullet> Protect public health and prevent foodborne illness by 
        committing the necessary resources to ensure the highest 
        standards of inspection, with the most modern tools and 
        scientific methods available.

  <bullet> Support and enhance FSIS programs to ensure efficient 
        regulation and the safety of meat, poultry and processed egg 
        products, including improved coordination and clarity on 
        execution of food safety responsibilities.

  <bullet> Continue to focus USDA resources on products and processes 
        that pose the greatest public health risk.
Research, Education & Economics
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          U.S. Department of Agriculture (USDA) Summer Hispanic 
        Association of Colleges and University (HACU) intern alumni 
        panel.

  <bullet> Commit to a public research agenda that places the United 
        States at the forefront of food and agriculture scientific 
        development.

  <bullet> Develop an impact evaluation approach, including the use of 
        industry panels, to align research priorities to invest in high 
        priority innovation, technology, and education networks.

  <bullet> Empower public-private partnerships to leverage Federal 
        dollars, increase capacity, and investments in infrastructure 
        for modern food and agricultural science.

  <bullet> Prioritize investments in education, training and the 
        development of human capital to ensure a workforce capable of 
        meeting the growing demands of food and agriculture science.

  <bullet> Develop and apply integrated advancement in technology 
        needed to feed a growing and hungry world.
Rural Development
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

U.S. Department of Agriculture (USDA) Rural Development's 
        (RD) Jacki Ponti-Lazaruk with husband James and daughter 
        Abigail, 5, came to Miller Farms in Clinton, MD.

  <bullet> Create consistency and flexibility in programs that will 
        foster collaboration and assist communities in creating a 
        quality of life that attracts and retains the next generation.

  <bullet> Expand and enhance the effectiveness of tools available to 
        further connect rural American communities, homes, farms, 
        businesses, first responders, educational facilities, and 
        healthcare facilities to reliable and affordable high-speed 
        Internet services.

  <bullet> Partner with states and local communities to invest in 
        infrastructure to support rural prosperity, innovation and 
        entrepreneurial activity.

  <bullet> Provide the resources and tools that foster greater 
        integration among programs, partners and the rural development 
        customer.
Natural Resources & Environment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Chelan District Ranger, Kari Grover Wier, reviewing progress 
        at the reclamation site.

  <bullet> Make America's forests work again through proactive cost-
        effective management based on data and sound science.

  <bullet> Expand Good Neighbor Authority and increase coordination 
        with states to promote job creation and improve forest health 
        through shared stewardship and stakeholder input.

  <bullet> Reduce litigative risk and regulatory impediments to timely 
        environmental review, sound harvesting, fire management and 
        habitat protection to improve forest health while providing 
        jobs and prosperity to rural communities.

  <bullet> Offer the tools and resources that incentivize private 
        stewardship and retention of forest land.
Management
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Navy-veteran Lenny Miles, Jr. works on some lesser-seen 
        business operations for his farm in the office, before heading 
        out to harvest his corn crop in the afternoon.

  <bullet> Provide a fiscally responsible farm bill that reflects the 
        Administration's budget goals.

  <bullet> Enhance customer service and compliance by reducing 
        regulatory burdens on USDA customers.

  <bullet> Modernize internal and external IT solutions to support the 
        delivery of efficient, effective service to USDA customers.

  <bullet> Provide USDA full authority to responsibly manage properties 
        and facilities under its jurisdiction.

  <bullet> Increase the effectiveness of tools and resources necessary 
        to attract and retain a strong USDA workforce that reflects the 
        citizens we serve.

  <bullet> Recognize the unique labor needs of agriculture and leverage 
        USDA's expertise to allow the Department to play an integral 
        role in developing workforce policy to ensure farmers have 
        access to a legal and stable workforce.

  <bullet> Grow and intensify program availability to increase 
        opportunities for new, beginning, veteran, and under-
        represented producers.

    The Chairman. Well Mr. Secretary, thank you very much for 
being here and being with us. We are looking forward to your 
comments.
    The chair would remind Members that they will be recognized 
for questioning in order of seniority for Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate Members' 
understanding.
    We have votes at about 11:30. The Secretary has a hard stop 
at 12:00, and so I will ask unanimous consent that we go to a 3 
minute clock for our questions in order to give everybody a 
chance to get their comments in. The 3 minutes will be comments 
as well as answers to a question if there is a question in the 
comments, so I am going to be pretty Rambo about that gavel. If 
we have time at the end to do a second round we can do that, 
but in order to try to get everybody through properly, I am 
going to be pretty strict on it so we can get this done.
    With that, I recognize myself for 3 minutes.
    Mr. Secretary, you mentioned sorghum. One of the things 
that I tell folks is that we have a President who is defending 
America's trade policies, which means going after folks who are 
violating it. China has a lot of issues going on, and they have 
recently, over the weekend, announced that they are going to go 
after our sorghum producers.
    The United States had a tremendous run up in sorghum 
exports to China over the last 3 years. Can you visit a little 
bit about what the agency can do in the interim while this is 
being played out for our sorghum producers?
    Secretary Perdue. Well obviously the trade environment has 
created a lot of anxiety over the last year. I believe that our 
President is absolutely convinced that we can do better. 
Generally, we believe that NAFTA, for instance, has been 
helpful to agriculture in most sectors, but as I look at some 
of the provisions and some of Canada's policies regarding the 
prohibitions against U.S. products, and we can do better. I 
think that Mexico and Canada are coming to that conclusion.
    You mentioned China specifically, and we know that in world 
trade, China has a policy of dominance in many sectors. The 
good part about it is American producers are so productive, we 
have to have good trade policies, and the Administration, 
Ambassador Lighthizer, is working toward policies that will 
right those. We cannot be responsible for China's reaction. 
Obviously the Administration knows that we have to be prepared 
for that, and we have advocated on behalf of the ag economy to 
be prepared for any kind of situation that may arise on actions 
they may take.
    We think the sorghum issue will mollify over a period of 
time. This just shows you, as an example, how fragile and how 
sensitive the ag economy and commodity prices are now to trade 
disruptions, and we need to be very careful as we take actions 
there.
    No one is saying that we should not again take actions over 
bad actions from China and others regarding intellectual 
property theft, other types of dumping there. We just need to 
be very careful how we handle the ag economy, because as you 
know, agriculture typically is the point of the spear of 
retaliatory measures, and we see even the conversation of 
considering countervailing duties, what that can do to a market 
like sorghum.
    Everyone in the Administration is aware of that, and we are 
discussing that, frankly, on a weekly basis.
    Mr. Chairman. Thank you, Mr. Secretary, and I appreciate 
those efforts.
    I yield back the rest of my time. Collin, 3 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    Mr. Secretary, I have said to many people what I am 
concerned about with this farm bill is that we are going to get 
wrapped around the axle on SNAP like we did last time, and it 
seems like all of the rhetoric I hear in regards to work 
requirements for ABAWDs, able-bodied adults.
    Since 1996, we have work requirements in the Federal law. 
You can only get 3 months of benefits if you are an able-bodied 
adult unless there is a waiver. So we have nine states that 
have statewide waivers. We have 27 states that have some kind 
of waivers within their boundaries, and we only have 17 that 
don't have waivers. Now at one time, when we had high 
unemployment, that was maybe one thing, but as I understand it, 
you have the authority to approve these waivers.
    One of the things that it says in there is that an 
unemployment rate in excess of ten percent, at that point you 
don't really have any option. If it is ten percent, you have to 
do it. It also says that it does not have sufficient number of 
jobs. I am not sure how you determine that. All I can tell you 
is that in my district, the number one issue that I have day in 
and day out is how do we get enough people to fill the jobs 
that we have. These are manufacturing, good jobs, good pay. We 
can't get enough people.
    The other thing it says is on the request of the state 
agency, the Secretary may waive the applicability of paragraph 
two of any group of individuals. My question is, in light of 
all the rhetoric about how we got to get these people back to 
work and somehow or another the SNAP Program is the problem, 
which I don't buy into, is there any effort now in USDA to try 
to reign in these waivers and to get people back to work?
    If I had my way, we would give them money and move them to 
my district and we will put them to work.
    Secretary Perdue. Thank you, sir. Within the limits of the 
law, Mr. Peterson, we are doing everything we can to reign in 
the waivers.
    You mentioned some statutory prohibitions there, and any 
time we run up against those, in fact, even from a regional 
basis, it is not a statewide unemployment number, but if they 
can do that, states have been fairly aggressive. The ones you 
identify that have waivers, they have been fairly aggressive in 
requesting those waivers for which we see no statutory or 
administrative authority at USDA to deny. And we have discussed 
it that if we don't find a way to do that, that is one of the 
areas that probably that could be addressed in the farm bill 
regarding the parameters around those issues of the waivers.
    We have had other types of waivers, as you know, that we 
have denied that, again, as long as it is a federally mandated 
program, it would be very difficult to pick winners and losers 
in that regard. So we would welcome, really, more statutory and 
administrative authority in order to manage that program in a 
way that becomes temporary and becomes a pathway back to 
independence and job creations.
    The Chairman. Thank you. The gentleman's time has expired. 
Mr. Thompson, 3 minutes.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Secretary, always great to see you. Thank you for 
spending some time with us in Pennsylvania a couple weeks ago. 
It was really appreciated.
    I want to talk about the spotted lanternfly, actually, a 
little different. An invasive species, a growing problem in 
Pennsylvania. It is already found in 13 counties, continues to 
wreak havoc on agriculture producers and land owners. This pest 
hosts and is a threat to apples, grapes, peaches, stone fruits, 
maples, walnuts, oaks, pines, hardwoods, big part of our 
agriculture economy.
    Last month at the Pennsylvania Farm Show, Members of this 
Committee along with Under Secretary Greg Ibach, thank you for 
having him come up in joining us, heard directly about the need 
for more resources to combat the spread of this destructive 
invasive. Can you advise on how APHIS plans to assist with this 
extremely urgent matter?
    Secretary Perdue. Well as we know, there are a lot of pests 
that are threats internationally. This is a new one. The 
Florida industry, citrus industry certainly learned about how 
those international pests can damage an industry, and you 
mentioned your fruit crops and grapes and others. The spotted 
lanternfly is one of those that we hope to get control of, and 
the good news is Under Secretary Ibach has already approved the 
resources to get it under control in working with your local 
people there at Penn State, and within the state, in order to 
try to hem that in and stop that spread. It could be a very 
critical pest for our fruit and grape industry in that way, as 
those affected counties already know.
    We are doing our best from APHIS and Under Secretary Ibach 
is on the job and we have approved those resources to try to 
get control of the spotted lanternfly.
    Mr. Thompson. Thank for that. Also, thank you for what you 
have done with our nation's school lunch programs. I 
specifically am appreciative of the interim final rule you 
produced last year that would allow, among other things, to 
reinstate low fat flavored milk. That policy is right in line, 
obviously, with legislation I have introduced.
    Is it safe to say that schools can follow the interim final 
rule to include one percent flavored milk as they put out their 
bids for the 2018-2019 school year without waiting for the 
final rule in the fall of 2018?
    Secretary Perdue. That is certainly our intention, Mr. 
Thompson, but the fact is many school districts are reticent 
over following those kind of waivers, and we would welcome the 
kind of legislation you proposed that could ensure that they 
could do that. Any kind of waiver process you have is always 
problematic and more paperwork, and it would be wonderful if it 
were in statute.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time is up. Mr. Costa, 3 
minutes.
    Mr. Costa. Okay, thank you, Mr. Chairman.
    Mr. Secretary, I too want to thank you for your efforts in 
getting around the country and coming to California. We look 
forward to continuing to see you. You are doing a good job.
    Because of time, I have some quick questions and would like 
some quick answers.
    As it relates to efforts with the Federal Marketing Order 
in California, some of us worked very hard on that 4 years ago 
to set that up to allow that opportunity to take place under 
the right conditions. We are there. We are getting upheld by 
solicitor's general opinion on a court decision that is 
separate, in my opinion, from the matter dealing with this 
Marketing Order. Can you tell us how you are going to get this 
resolved? Obviously if you had made a response before December 
31, it wouldn't be an issue. Where are we?
    Secretary Perdue. Right. It is complicated. Obviously it 
has to do with the Department of Justice essentially changing 
their minds or their opinion regarding whether the 
Administrative Law Judges are constitutional or not. As you 
know, the Federal Milk Marketing Order has to be under formal 
comment, which is adjudicated.
    Mr. Costa. I understand that. Is there another way we can 
deal with this?
    Secretary Perdue. I have asked my General Counsel that, and 
he fears until this Lucia case (Lucia v. Securities and 
Exchange Commission) is there, we will be litigated if we 
proceeded under that formal comment period.
    Mr. Costa. The dairy industry has, as you know, suffered 
around the country and as well in California. Obviously they 
are very desperate for something to happen on this. What is 
your plan of action for finalizing the California Milk 
Marketing Order?
    Secretary Perdue. One of the efforts we have made in 
others, this statute requires this be a formal ALJ type of 
adjudicated process. Other steps we have taken are the informal 
notice and comment on other regulations. So until this is 
determined, I am not sure what----
    Mr. Costa. Well we want to continue to work with you on 
exploring what other options might be available, given the 
circumstances.
    Let me segue over to trade. You have been a voice of 
reason. It has been difficult for many of us to follow what 
direction the President is pursuing with regards to whether it 
is TPP or NAFTA. Thirty percent of California's milk goes to 
Mexico. Mexico and Canada are our second and third largest 
agricultural trading partners. What is your quick assessment on 
NAFTA at this point in time?
    Secretary Perdue. NAFTA negotiations are a little bit like 
Congressional bills. It doesn't ever happen until the end, but 
the good news I am more hopeful than I have been.
    Mr. Costa. Don't tell me that.
    Secretary Perdue. Probably, we will see more movement on 
Mexico's side than we do Canada. I believe, frankly, we will 
get a better deal from both of them and preserve the benefits 
for all three countries.
    Mr. Costa. Before the end of this year?
    Secretary Perdue. Yes, sir. Again, we have the Mexican 
elections coming up. We have one more round here which, in my 
opinion, will be extended; but, again, we get the Mexican 
politics out of the way, we will have a deal before the end of 
the year.
    Mr. Costa. Mr. Chairman, thank you for the time and I will 
submit the other questions for the record.
    The Chairman. All right. Mr. Goodlatte, 3 minutes.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. You and I have discussed the issue 
of the agricultural workforce a number of times in the past, 
and we both agree that our current H-2A Agricultural Guest 
Worker Program is deeply flawed.
    From those conversations we have had with farmers all 
across this country, it makes sense that a guest worker program 
should help, not punish, farmers who are willing to pay a fair 
wage for law-abiding, dependable workers when American workers 
are not available. With the state of the rural economy front 
and center this morning, unnecessary burdens place H-2A 
employers at a competitive disadvantage in the marketplace, 
therefore threatening the future of U.S. agricultural 
production. Most farmers and ranchers do not even use the 
program. How do you feel an overhaul of the H-2A program would 
benefit the rural economy of America?
    Secretary Perdue. Chairman Goodlatte, as we have discussed 
publicly and privately, I applaud your efforts and your 
interest in creating a permanent legal workforce for 
agriculture. As I indicated in my opening remarks, it is one of 
the top three things that we hear about on a continuing basis, 
not just the seasonal workers, but obviously in the dairy and 
year-round type workers as well.
    What you have contributed to this effort is amazing in the 
fact that what we have told our constituency that you are 
working on some tweaks. It is not everything that all of them 
would like, and we have issues from the California transition 
to others, but I know that we are working on a good resolution 
on those. But we have advised them to be very favorable in 
those discussions. I am very hopeful that the legal 
agricultural workforce can work its way into any of the 
immigration debate and discussion and resolution that Congress 
comes up with in the future.
    My thanks to you for continuing to put it in the forefront. 
It is one of the most critical issues facing American 
agriculture.
    Mr. Goodlatte. Well thank you, and we will continue to work 
with you and the agricultural community to make sure that we 
get it right, but now is the time. This is an important issue. 
This is the one sector of our economy that is the most affected 
by the lack of workforce. Agriculture is impacted by 
international competition. Everything that is grown and 
produced in America can be produced in dozens of other 
countries around the world, and unless we have a workforce and 
a program that works to obtain that workforce and one that 
works for both employers and the guest workers, and for 
American citizens, we are going to lose out. And so I am hoping 
that we can get that done and get that done now.
    Secretary Perdue. I am very hopeful.
    Mr. Goodlatte. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. The gentleman yields back. Ms. Fudge, 3 
minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank 
you, Mr. Secretary, for being here.
    Mr. Secretary, do you know if the Administration has made 
any progress towards, or even any efforts to, nominating an 
Assistant Secretary for Civil Rights?
    Secretary Perdue. Yes, that person is in vetting right now. 
We have an individual that you will be very proud of and we are 
moving forward with that. We have been disappointed, frankly, 
in our nomination process and how slowly it has proceeded. We 
need a lot of help there, but we have identified and the 
President hopefully will have a nomination before you very 
quickly.
    Ms. Fudge. Thank very much. Let me just go a little further 
with that.
    It is my understanding that you recently considering 
realigning the Office of Civil Rights by combining and 
centralizing them in D.C. Now quite frankly, I am really 
surprised because we all know that the Department does not have 
a stellar record of civil rights. I mean, we settled Pigford 
for black farmers. We settled Keepseagle for Native American 
farmers. So it is very, very important that we don't make those 
same mistakes.
    I understand about budgetary constraints, no question about 
it. I know that this year we are going to borrow 80 percent 
more than we borrowed last year because of lagging tax revenue. 
I understand that. I also understand that the tax bill that we 
just passed is going to make that even worse this year. So I 
understand about resources, but I don't understand why we would 
punish socially disadvantaged farmers by centralizing something 
that we know needs to be in the states. Can you help me with 
that? Are we still talking about doing that?
    Secretary Perdue. Sure. We are making reorganization in 
many ways over centralization of enterprise efforts. The good 
news is, and I would invite you to come to the USDA and let us 
share with you how we have cleared up the backlog of cases in 
less than a year, many that have been there for 18 months to 2 
years. We were outside the statutory limits, and the people 
that we have had in that situation have cleared those up within 
that time limit. Our goal is within 90 days over any kind of 
civil rights case or anything being filed to give any 
individual externally or internally a hearing and an 
adjudication of their complaint.
    Ms. Fudge. So again, are you still planning to centralize 
all of this civil rights offices?
    Secretary Perdue. We are planning to, again, manage the 
Department of USDA to be the most efficient, the most 
effective, and the most customer focused. That includes, 
again----
    Ms. Fudge. Mr. Secretary, is that a yes or a no, sir?
    Secretary Perdue. I am sorry?
    Ms. Fudge. Is that a yes or a no?
    Secretary Perdue. Yes, we are going to enterprise manage 
that, absolutely.
    Ms. Fudge. Thank you very much, Mr. Chairman. I yield back.
    The Chairman. The gentlelady yields back. Mr. Lucas, 3 
minutes.
    Mr. Lucas. Thank you, Mr. Chairman, and Mr. Secretary, I 
want to thank you. It took you all of 11 days to get to my 
district after you were confirmed and sworn in, and I have 12 
quotes on my iPhone from that speech you gave from that hay 
rack that day. I put them there because I thought it was a 
composite wisdom. It tells me how your philosophy is about 
running this Department. I just wanted to pass this along that 
I am thinking about this labor situation, and I have the answer 
right here in front of me. More babies and less welfare, but 
that is a long-term plan.
    I want to shift off that topic and not ask you a question 
on it, and turn to this and say to you in this record today 
that the nomination of our state Secretary of Agriculture, Bill 
Northey, to be Under Secretary of Farm Production and 
Conservation in your Department is very important to me, and I 
am doing all I can, especially behind the scenes, to try to 
bring that together so that can be resolved. I wanted to open 
that topic up in case you had any comment you would like to 
make regarding that subject.
    Secretary Perdue. I would encourage you and all your 
colleagues to help in that regard. This is a very important 
position. The Under Secretary oversees our FSA offices, our 
NRCS offices, and the crop insurance. These are the producers. 
That is the customer facing issues that we have. We need good 
leadership there. Bill Northey has demonstrated himself. The 
frustrating part is it has nothing to do with Bill Northey. It 
is a total other issue. If there were issues regarding his 
answers or other things like that, I could accept that more and 
we would work to cure that. We feel as if we are caught in a 
crossfire, so I hope you will use your personal relationships 
in that regard to help us remove that hold as soon as possible.
    Mr. Lucas. I will continue with that, Mr. Secretary, and I 
appreciate your response.
    Shifting topics, the foot-and-mouth disease vaccine, many 
of us agree on expanding and establishing a bank, a vaccine 
bank. But I wanted to ask you specifically to speak to the 
issue of genetically modified vaccine and how that might 
dramatically change the way we produce a vaccine, how we 
inventory it, and how we distribute it.
    Secretary Perdue. Surely. There are, if I can use the term, 
two strains of thought regarding that right now. One is a 
traditional vaccine that cannot be produced in the United 
States of America by statute. We would have to procure that. 
Really the only effort there now is in France. That is still a 
longer term type of thing before they get a line up. The ARS 
has participated in what is called a leaderless or attenuated 
vaccine that could be produced here. Many people feel like that 
is a ways away as well.
    Honestly, Congressman, that is an issue where USDA owes 
this Committee and Congress more specific information and 
advice and counsel over how you make the decisions of which way 
to go. Certainly from an appropriation, this is not a cheap 
issue. The money is not there. You have to find it, and I 
challenged my team this week to get more specific advice and 
counsel regarding what recommendations, the pros and cons of 
each step, so you all can be as informed you need to be.
    Mr. Lucas. Thank you, Mr. Secretary. Mr. Chairman, I yield 
back.
    The Chairman. The gentleman's time has expired. Mr. 
McGovern, 3 minutes.
    Mr. McGovern. Thank you. Mr. Secretary, thank you for being 
here.
    Mr. Secretary, I am deeply worried about the future of SNAP 
and our nutrition programs. I am worried because, as the 
ranking Democrat on the Nutrition Subcommittee, we haven't seen 
a paragraph, a sentence about what might be in the farm bill, 
and that usually tells me that when it comes out, it is going 
to be something I don't like. And I am worried because I read 
today, the Chairman of the Committee saying that the Freedom 
Caucus will be very happy with the so-called reforms on SNAP. 
We have no idea what they are going to be. I am assuming that 
our USDA is working with the Majority on this Committee, in 
drafting the farm bill, and if you are, maybe you can give us a 
copy of what we are supposed to be dealing with. I don't think 
it is a classified document.
    I would just say that I want a farm bill just as much as 
everybody else does on this Committee, but if it eviscerates 
our nutrition programs, our SNAP Program, there is going to be 
one hell of a fight on the floor.
    Last year, you said when you came before the Committee, and 
you were new, that, ``SNAP is a very effective program'' and, 
``You didn't want to fix things that aren't broken.'' That was 
music to my ears. Yet a couple of weeks later, the 
Administration's budget came out and it was $193 billion in 
cuts in the program. Now to be fair, you had just started so 
that wasn't your work. I hope that we get an assurance that we 
won't see those kinds of cuts when the new budget comes out.
    I saw the USDA's farm bill principles in which you advocate 
for legislation that will support work. We all support work, 
but I am just wondering what the specifics of that might be, 
and then you said that, you don't want SNAP to become a 
permanent lifestyle for some, and all the numbers show that 
that is not the case. That even with able-bodied adults without 
dependents, that the time on the program is relatively short. I 
am worried about some of these words because they have 
meanings, sometimes, that justify deep cuts in this program 
that might throw people off.
    Is there any kind of assurance you can give us that we are 
not going to see in the Administration's budget deep cuts in 
SNAP, or that the Administration will not stand for this 
Committee coming up with a farm bill that would have deep cuts 
in the SNAP program.
    Secretary Perdue. Certainly, Congressman. Our role at USDA, 
and we would be happy to visit with you specifically as well as 
we do all Members to talk about ideas of where we feel like we 
can inform you and give you counsel and advice of the farm 
program. Obviously, the role of this Committee and Congress in 
general is to write the farm bill. Our goal is advice and 
counsel in those areas where we see some advantages.
    You may be looking at different statistics than I am, but 
obviously, we believe that work for those people who are able 
is a transition to a more independent lifestyle----
    Mr. McGovern. And the majority of people who can work 
actually do work who are on SNAP.
    I guess my point is simply that if you have any influence 
with the Majority in this Committee, please get them to release 
the text so that we can actually look at it and know what we 
are going to be voting on, and to find out whether it is going 
to adversely impact the most vulnerable amongst our society.
    Secretary Perdue. I will speak to the Chairman right after 
this meeting.
    Mr. McGovern. Thank you.
    The Chairman. The gentleman's time has expired. Mr. Scott, 
3 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. 
Governor, always good to see you.
    We have had a lot of discussions about a lot of things. I 
want to talk with you briefly about rural broadband, and as you 
know, the digital divide is one of the things that we have to 
bridge as we talk about the rural economy. How do we get 
industries to prosper there, whether they be large or small? 
And obviously, access to the digital infrastructure of the 
country is one of the most important things.
    Right now, USDA and the FCC both have programs to assist 
rural broadband deployment. Can you speak to the coordination 
between the two agencies and if there are any improvements that 
can be made, and as we begin working on the infrastructure 
package, what suggestions do you have for improved access to 
the under-served areas without overbuilding or duplicating 
services?
    Secretary Perdue. Thank you for the question, Congressman 
Scott. This, again, could be one of the most transformative 
things we do in the 21st century regarding ubiquitous broadband 
to allow everyone from wherever they may live in the United 
States to participate in the modern data-driven economy.
    We are, again, working with FCC. We are working with the 
Department of Commerce in the Rural Prosperity Task Force. We 
made it one of the primary points. The good news is the 
Administration, the White House has picked up on this and we 
are now working with the Center of Innovation out of the White 
House and trying to focus and understand from a census of where 
all the Federal dollars are, and how they can be, again, 
concentrated in an effective way, not only just for Federal 
dollars, but in the infrastructure bill to leverage with state 
and local dollars. Many states already have ideas about this, 
as well as the private-sector. Our Administrator of Rural 
Utilities Service and Rural Development was just announced. He 
is a former electric co-op president who led in Missouri in a 
very less than dense area a profitable transition in that. We 
think there are a lot of partners out there that could be 
effective, not in a hothouse type of environment, but a general 
strategic goal of broadband everywhere. It has sociological 
input, it has economic benefits for e-commerce, it has 
telemedicine, distance learning, all those kinds of things, 
plus the sociological benefits of keeping those kids in areas 
where they would love to live.
    Mr. Austin Scott of Georgia. Well Mr. Secretary, thank you 
for your service. I hope that as you continue to serve, we will 
remember the hard times that we had with the Federal agencies 
in trying to run the State of Georgia and hopefully get those 
barriers out of the way where we can remove the barriers and 
get the government closer to the people.
    So thank you for your service. He was a great governor and 
he is going to be a great Secretary of Agriculture.
    The Chairman. The gentleman's time has expired. Ms. Kuster, 
3 minutes.
    Ms. Kuster. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary, and thank you again for coming to New Hampshire. We 
had a wonderful meeting with you and I appreciate it.
    I am going to cut right to the chase. You and I had a nice 
colloquy last time you came about your experience with the 
Appalachian Regional Commission. In my part of the country, the 
Northern Border Regional Commission is crucial for our rural 
development, and I am very concerned that that has been 
eliminated from the proposed budget. I just want to cite a 
couple of things that are happening in my district. Financing 
the construction of a 32 bed treatment facility for our opioid 
epidemic in a town called Bethlehem, New Hampshire, crucial. 
This is the northern part of my district. No other treatment 
facility is available. We are in the process of constructing 
affordable housing units for veterans in Plymouth, New 
Hampshire. We opened a new health facility in Bristol, New 
Hampshire. Crucial funding for our infrastructure in rural 
communities.
    Can you make a commitment to me today that you will help us 
get the funding for the Northern Borders Regional Commission?
    Secretary Perdue. Well again, I will commit to you that 
Rural Development and the USDA will do all that we can in these 
areas to help. Obviously I wish that I were in charge of the 
whole budget, but I am not, and obviously there is an 
organization called OMB that has a lot of say in that. We try 
to advise and counsel them as well, but oftentimes they don't 
listen as well to us as we would like for them to in that 
regard.
    But certainly for the needs, as you indicated, I saw 
firsthand the beneficiary of the Appalachian Regional 
Commission. I know what these can do, but we also are committed 
and dedicated to making sure rural development in these kinds 
of spaces, whether it is treatment facilities, transition 
facilities, or the other things that you mentioned, still as a 
strong participant in our rural communities, whether it be the 
Northeast, the Southeast, the Southwest, or the Northwest, and 
all across America.
    Ms. Kuster. Thank you, and just a heads up to my 
colleagues, I have bipartisan support from my Republican 
colleagues and Democratic colleagues. I hope this will be in 
the upcoming farm bill. If not, I will be back with an 
amendment.
    So thank you, and just very briefly, could you comment 
about rural broadband deployment? That was an issue we had 
talked about when you were in New Hampshire, in 30 seconds.
    Secretary Perdue. Certainly. We are working feverishly, 
actually, not only the FCC, Department of Commerce, other 
partners where billions of Federal dollars are already going, 
but with our state and local partners as well as our private-
sector partners in trying to develop a nationwide strategy for 
deployment of that. We believe, again, as I indicated to 
Congressman Scott, that it could be one of the most 
transformative things we do in America for the 21st century. 
You look at the Federal highway interstate system, you look at 
the REA, you look at the telephone system. That is what we need 
today, and we are working toward that.
    Ms. Kuster. Well thank you, and I would love to work with 
you. I yield back.
    The Chairman. The gentlelady's time has expired. Mr. Gibbs, 
3 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you, Secretary, 
for being here. It is great to see you again.
    I have a question in regard to what happened in the tax 
bill, and you may or may not be familiar, but hopefully you 
have some comment on it.
    In the Senate, Section 199 and they created a new Section 
199A, and it is causing an issue with farmer co-ops and other 
grain elevators, and it is because of the 20 percent deduction 
for co-ops, and then the tax rate is on gross, but I know the 
National Council of Farmer Cooperatives and the National Grain 
Feed Association are trying to work together to fix this in the 
Senate, because it originated in the Senate, because it does 
kind of pick winners and losers, and it is really going to hurt 
our small businesses that buy grain from farmers and other 
things.
    Can you comment on that, do you see what is happening?
    Secretary Perdue. Yes, sir. We are on the record obviously 
early on after that came out, and it was acknowledged some of 
the inadvertent consequences of the language in the section 
199A is we felt like that was unintended consequences, and we 
would love to see a resolution as quickly as possible. It was 
going to affect the marketing of various crops and we hope, and 
I trust that the cooperative community as well as the 
independent community are working together on a fair 
resolution. We wanted to see the previous provisions of section 
199 preserved, and that was really the intent of Congress, but 
kind of moved from the meter a little too far. Hopefully we can 
get back in there in an effort where we don't see the 
diminishment of what the previous section 199 provisions were, 
but certainly what happened was a very unfair advantage, and 
probably everyone, whether you are a co-op or not, recognized 
that.
    Mr. Gibbs. Well, the goods news is the National Council of 
Farmer Cooperatives and the National Grain Feed Association are 
working together, because they would kind of be on maybe both 
sides of the issue there, and I think that is positive.
    I have to apologize, I had to step out and I just caught 
the end of Representative Scott's comments on the broadband. I 
will just say because I am going to run out of time, but I 
totally agree with you 150 percent. We need to get broadband 
deployed in the rural areas. One vehicle might be working with 
some of the electric co-ops. I have a couple of electric co-ops 
in my State of Ohio, and I know there are some in Indiana that 
have actually tried to lay fiber and do that. It needs to 
happen. We are kind of like we were probably when President 
Eisenhower did the interstate highway system. This is the new 
economic development in rural America and it has to happen.
    Secretary Perdue. I agree.
    Mr. Gibbs. I yield back.
    The Chairman. The gentleman yields back. Ms. Adams, 3 
minutes.
    Ms. Adams. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary.
    Our 1890 land-grant universities have played an important 
role in the rural economy, many in rural districts in the South 
where they are among the largest employers in their towns. The 
1890s contributed $4.4 billion to their local economies, but as 
you know, Mr. Secretary, more than half of our 1890s are not 
getting 1:1 matches from their states. In my home state, North 
Carolina A&T provides extension services in 51 of our 100 
counties and is doing a good job in helping our farmers and the 
community, but they are not getting their state match.
    I understand that as governor, you helped Fort Valley State 
to get 1:1 matches. We need your leadership in USDA and to 
ensure that all of our 1890s receive their funding. So how can 
we work with states to encourage them to act more equitably 
when providing a match, and what did you do in Georgia to make 
it work?
    Secretary Perdue. Again, it is a recognition of the 
contributions of our 1890 land-grant schools have. We were 
fortunate in Georgia with Fort Valley State that they had the 
great programs that were recognized. We visited around. We were 
at the Florida A&M and I was really amazingly surprised at the 
amount of scientific research those students were doing there 
was quite an indication of the good work that is being done.
    One of the things that we are working on with your 
colleague, Congressman David Scott, my friend from Georgia, his 
bill, H.R. 51, Funding for Student Scholarships for the 1890s 
Land-Grant African-American Colleges and Universities Act. We 
have been discussing with the White House how we can enhance 
through scholarships some of that.
    The challenge is obviously, from a state perspective and 
state budgets, we are somewhat constrained by how we can 
influence that other than encouragement over them matching the 
Federal dollars there. There is a tendency, obviously, among 
education and research when the Federal Government moves a step 
forward, sometimes our local governments move two steps 
backward and we can't continue to backfill that with more 
funding. But we can also be helpful. We have created the Office 
of Partnership and Public Engagement that is reinvigorating our 
USDA relationship with our 1890 schools, as well as our Tribal 
colleges as well.
    Ms. Adams. Let me just quickly ask you about Centers of 
Excellence and what your thoughts are on that. We had just a 
temporary project, and so what is your thought about creating 
Centers of Excellence and moving them forward?
    Secretary Perdue. Would you repeat that question? I am not 
sure that I understood.
    Ms. Adams. Well Centers of Excellence, three of them were 
started with only discretionary funding, and we haven't had any 
permanent centers. I was just wondering about that.
    Secretary Perdue. I don't know that I have a specific 
answer for you. I will get one for you on the Centers of 
Excellence.
    Ms. Adams. Well I appreciate that. Thank you very much. I 
yield back.
    The Chairman. The gentlelady's time has expired. Mr. 
Crawford, 3 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Mr. Secretary, 
thanks for being here.
    Two or 3 weeks ago, we had the opportunity to visit with 
you a little bit about some of the challenges of young farmers 
and ranchers and some of the barriers to how they can enter 
production agriculture. Farm bill principles, one of them 
states is to encourage entry into farming through increased 
access to land and capital for young beginning veteran under-
represented farmers. What do you think we can do from a policy 
perspective to help facilitate that, because it is a huge 
challenge and we are really not moving the needle very 
measurably.
    Secretary Perdue. Sure. One of the things that Ranking 
Member Peterson and I have talked about is making sure that our 
CRP programs don't outbid land higher than rental rates for 
keeping it away from the beginning farmers many times. Another 
policy we need to look at the indexing of our farm loans. As 
you know, the access to capital is very important. There is a 
another statutory provision regarding direct farm loans and FSA 
is that beginning farmers have to have 3 years of experience, 
and we need to look at how we can modify that and make sure 
that we do good underwriting on that. But particularly in the 
Northeast, we have seen a lot of young entrepreneur farmers, 
not necessarily from farm background, getting in and we need to 
be more mindful of how we can facilitate those types of 
efforts.
    Mr. Crawford. I want to switch gears a little bit with you 
here. Not that long ago, it has been about a year or so ago 
when you were confirmed, and you mentioned in your Senate 
confirmation hearing we should have Cuba as a customer. They 
would love our products. I agree with that quite a bit. I would 
ask you if you could kind of give me a bit of a read on the 
Administration's perspective with regard to ag trade in Cuba, 
specifically our legislative efforts, H.R. 525, Cuba 
Agricultural Exports Act, to effect that.
    Secretary Perdue. Yes. Again, from the Administration's 
perspective, I don't know that a lot has changed regarding ag 
trade. In fact, if you look at the statistics, our ag trade in 
Cuba this past year went up significantly. Poultry and other 
products went up fairly significantly to Cuba. Cuba has been 
mostly a cash flow issue. It is a payment issue, and that 
obviously whatever Congress wants to do in that way, but we are 
still shipping ag products to Cuba. Again, it is a very good 
logistical play for us, and again, as I said in the testimony, 
they love the products and would love more of them. It is a 
matter of how they pay for it.
    Mr. Crawford. Correct. Is there a sense among your peers in 
the Administration, your counterparts say at Commerce and 
Treasury that they might accept a change to the statute that 
allows for the financing of those transactions?
    Secretary Perdue. I haven't had specific conversations. 
Early on the President's comments regarding Cuba may make that 
problematic at this point, but we haven't addressed that 
specifically.
    Mr. Crawford. Okay. Thank you, Mr. Secretary. I yield back.
    The Chairman. The gentleman yields back. Mr. Soto, 3 
minutes.
    Mr. Soto. Thank you, Mr. Chairman.
    Mr. Secretary, in Central Florida and around the country, 
we are developing new high tech sensors and photonics 
technology, and in your January 8, 2018, Report to the 
President of the United States from the Task Force on 
Agriculture and Rural Prosperity, a task force you chaired, the 
task force recommended increasing research and use of precision 
agriculture technology, specifically sensors and imagery 
technology.
    Can you elaborate on the Department of Agriculture's 
support for expanded research in sensors, image technology, and 
other smart ag technologies?
    Secretary Perdue. Well I believe that technology research 
and advancement has been really the result of our productivity, 
or really the precursor to our productivity here to now. When 
we see other countries, both in the EU and in China and other 
people putting more and more money into research, it is 
important that we continue that.
    The great news about the overall ecosystem that we have of 
delivery of information in the United States is we have a great 
basic research through our land-grant universities, 1890s and 
others, include over basic research the kind of ``what if'' 
questions. We have great applied research ecosystem of how that 
really affects what happens in the fields and the farms and the 
forest out there, and then we have this great delivery system 
of extension service that helps that. USDA and the Federal 
Government all participate in that in a great way. We have just 
got to make sure that we continue to focus it.
    USDA, as you well know, has the Agricultural Research 
Service that works very closely with our other independent 
researchers in our universities across the campus, so I can't 
say forcefully enough how important that is to continue our 
research efforts both on the kind of pests that we have, like 
the spotted lanternfly, the greening issues there, and other 
types of things. Research will be the solution. When you look 
at the productivity trends of American farmers and ranchers, 
that is what has contributed to their success and it is not a 
time to stop now because we have other nations who are rapidly 
catching up on research appropriations.
    Mr. Soto. And we appreciate you being a champion of 
fighting citrus greening. As our neighbor to the north from 
Georgia, Florida continues to have issues. What commitments can 
we count on going into the rest of 2018 and 2019 with regard to 
combating citrus greening?
    Secretary Perdue. One of the things we have been waiting on 
obviously is the disaster supplemental, which can have a huge 
impact over that. We know that Florida citrus industry was 
devastated at a point there, so we are anxious to see how that 
can flow into what permanent solutions we can make.
    There has been some progress, and the hurricane kind of set 
people back in that progress, but the Florida citrus industry 
was really kind of getting up on the plane, having the 
devastation of the last 10 years, but then understanding the 
kind of things. APHIS will continue to work with them over the 
things that really matter, and hopefully our disaster 
supplemental appropriation can help as well.
    Mr. Soto. Thank you, and I yield back.
    The Chairman. The gentleman's time has expired. Mr. Davis, 
3 minutes.
    Mr. Davis. Thank you, Mr. Chairman. Mr. Secretary, great to 
see you again. I have to commend you and your staff for 
listening whenever we have had a concern, and acting on those 
concerns. So thank you once again.
    In USDA's, 2018 Farm Bill and Legislative Principles 
document, the Department mentions the need to develop an impact 
evaluation approach to ag research. I agree with the need for 
such a system, and I actually plan on introducing legislation 
soon to ensure the research we are conducting is research that 
is most needed.
    What additional changes can Congress make to better improve 
ag research, to make our ag research dollars go further?
    Secretary Perdue. Again, we are looking at different 
focuses on priority issues. Just as you mentioned, we looked at 
some of the things that NIFA had funded in the past and caused 
some consternation among myself. From a Congress perspective, I 
don't know that I would like to encourage you to be more 
specific about that, but again, hold me accountable to make 
sure the research we are funding through USDA contributes 
directly to the productivity for the American farmer and 
rancher, and for resolving the most difficult issues and 
problems out there. And that is a management issue. If you find 
things we are not addressing then we want to hear about that, 
but that is very hard, difficult, and challenging to be 
specific enough in statutory language because the dynamic of 
problems changes, and we need to be flexible as we move forward 
in researching those issues, just like the spotted lanternfly 
which just recently appeared, then we need research to help us 
there.
    I would love the flexibility, but I also want you to hold 
us accountable for us doing the most needed type of research 
available.
    Mr. Davis. Thank you, Mr. Secretary.
    Since I do not have a lot of time left, I am just going to 
make a couple comments.
    As Chairman of the Congressional Biofuels Caucus, biofuels 
and the RFS are very important to my farmers and in my 
district, and I would hope that you can be a strong biofuels 
advocate in this Administration, and again, I greatly 
appreciate all you are doing at USDA.
    RUS, I know there has been a lot of discussion on rural 
broadband. I guess my comment would be as we move ahead, can we 
ensure that the USDA and the Rural Utilities Service can go 
back to some of the projects that they funded in the past and 
make sure that those companies that have been taking those 
dollars and leveraging them with RUS loans are actually being 
able to provide the service that they have promised, especially 
as we go into more fiber necessities in just our average 
everyday home life? Can we ensure that if they are not 
providing that service, that we might open it up for more 
competition to be able to leverage those RUS dollars from 
companies that will provide that new fiber-related service? 
Thank you.
    Secretary Perdue. Yes, sir. I would welcome that again from 
an outcome kind of based person, and if we are delivering 
grants or loans in a way, then we need to have a quality 
control audit to make sure we are getting what we are paying 
for.
    The Chairman. The gentleman's time has expired. Ms. Blunt 
Rochester, 3 minutes.
    Ms. Blunt Rochester. Thank you, Mr. Chairman, and thank 
you, Mr. Secretary. It is good to see you. We want to thank you 
on behalf of the first state for coming to visit us and being a 
part of our state fair. It was a highlight that people are 
still talking about.
    You had an opportunity to see some of rural Delaware, and 
one of the major issues that faces us, like many other states, 
is the issue of the opioid epidemic. Delaware is actually, 
according to the CDC, we are the eighth in drug overdose death 
rates, and so I wanted to focus a little bit on that and what 
USDA is doing.
    You guys have a portal which I am not sure if you are 
aware, but that opioid portal is not working and I know that in 
the FSA, NRCS, and Rural Development offices you would have 
pamphlets and I am not sure if you still do, but could you talk 
a little bit about what resources support or jurisdiction you 
feel are insufficient right now, and then what you think 
Congress can do to assist in that?
    Secretary Perdue. Certainly. Well first of all, I 
appreciate you pointing out the fact that we have a portal on 
the USDA website that is not functioning. I am a little 
embarrassed by that, and you will go back and check in the next 
couple of days, that should be resolved. But what we are trying 
to do, again, is to coordinate between our Federal partners and 
HHS, who has the primary responsibility here, how does USDA 
impact that? We know from RD perspective, Rural Development, 
many of these issues, unlike other drug issues, are probably in 
many rural areas, and whether it is transition centers, 
treatment facilities, or those kind of things, we have an 
aggressive approach through Rural Development, to help local 
communities address their needs in that.
    This is a terrible type of situation that is somewhat, 
frankly, difficult for easy answers, but we want to participate 
with our Federal partners from Congress's perspective, again, 
the awareness and acknowledgment is the first thing, and any 
types of ideas that you have that USDA can implement better, 
then we are open to a hearing from that.
    Ms. Blunt Rochester. Fantastic. This is one of the areas 
that I can see there is a lot of bipartisan support on. 
Congresswoman Kuster has been one of the leaders as well, so 
that is the one question.
    The other that I will submit in writing because we might 
not have enough time is I just would love to hear an update on 
your restructuring. The last time you were here, we talked 
about that and I would love to hear specifically what things 
you hoped to achieve, and whether or not you actually achieved 
those things in the restructuring.
    Secretary Perdue. That is a good question. We would love to 
tell you very specifically and at length where we have been and 
what we have done.
    Ms. Blunt Rochester. Great, thank you. I yield back.
    The Chairman. The gentlelady's time has expired. Mr. Bost, 
3 minutes.
    Mr. Bost. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being back here.
    Representative Davis actually touched on this slightly, but 
I want to go into more detail. Domestic energy production 
continues to rise in the United States, and the use of 
renewable fuels are helping the U.S. take steps towards energy 
independence. Renewable fuels and RFS are extremely important 
to the district I represent, and they provide good paying jobs, 
added value to commodities, alternative feedstock, and in some 
instances, new opportunities for capitalizing on investments 
and research and development made in advance of biofuels like 
cellulosic.
    Can you tell us where the USDA is, what is it doing to 
further improve opportunities in the renewable fuels area?
    Secretary Perdue. Surely. We have had a lot of discussions 
here based a lot on the challenge of the hold of our Under 
Secretary in that area, which that seems to be the real issue 
there. One of the things that we have looked at, I visited 
actually yesterday with the Chairman of the Commodity Futures 
Trading Commission about a more transparent market of RINs that 
may help to understand where the RIN trading is going. One of 
the things I have had a discussion with our EPA Administrator 
about is the RVP waiver going from ten to 15 percent. I have 
tried to get the industry to look at further than just 2022 
when the statutory volumes disappear, how can we build up and 
build in a demand base moving from ten percent to 15 percent 
there, helping with our energy independence? Some of this from 
a natural gas perspective and both an oil perspective, many 
people have lost some of the enthusiasm they had when the RFS 
guidelines were put in. It has obviously been good for American 
energy independence, as well as for the American farmer. We 
just want to help facilitate a movement further there into the 
RVP waiver of 15 percent.
    Mr. Bost. Thank you.
    I want to switch gears if I can. I am down on time here, 
but we have previously discussed bringing our waterways into 
the 21st century. My district is kind of unique. It is one of 
the only districts in the nation that has three navigable 
waterways, the Ohio, the Mississippi, and the Kaskaskia Rivers. 
The locks and dams and the thousands of miles that are up and 
down the inland waterways, the concerns I have with not only 
the levees, but also the locks and dams and maintenance and 
everything. What are you doing, and maybe you can express the 
concerns you might have as we try to move our grain and 
biofuels as our commodities, because when we compete in a 
worldwide market, if we move forward with the infrastructure 
bill, my big fear is what the fees are put in place will put us 
at a disadvantage.
    Secretary Perdue. Certainly one of the things we benefitted 
from in the United States of America is a great logistical 
system of which inland waterways are part of it, as well as our 
ports. And you have heard the President stand on the banks of 
the Ohio River and talk about that crumbling infrastructure. 
Some of those locks and dams are over 50 years old. So I am 
hopeful that in the infrastructure bill, we will see dedicated 
money for agricultural logistical services, including those 
that you described.
    Mr. Bost. Thank you very much.
    The Chairman. The gentleman's time has expired. Mr. Scott, 
3 minutes.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman.
    Secretary Perdue. Thank you, sir.
    Mr. David Scott of Georgia. Secretary Perdue, as always, it 
is a pleasure. Let me commend you on the excellent job you are 
doing. You visited what, 32 or 33 states already, and that is 
wonderful, and I just want to commend you for that. And I also 
want to thank you for your work with me and other Members of 
this Committee on H.R. 51, which would help to be able to 
address the issue of getting more young people into farming, 
into agriculture. It is the world's most important industry. 
The food we eat, the clothes we wear, our comfort level for our 
homes, our clothes. So this is very important that we be able 
to get scholarships into these schools. And these are very 
important schools, the 1890s, which are the African American 
land-grant schools and colleges. And of course, they may be 
African American, but they have students from every single 
race. So it is a beautiful, beautiful thing we are doing, and I 
deeply appreciate you talking to President Trump about this, 
and give him my regards, won't you? And tell him I thank him 
for his support. It is going to take a team effort to do that, 
and we are very delighted with that. Thank you, sir.
    Secretary Perdue. Thank you, friend. We suggested this 
February might be a good time to get that H.R. 51 across the 
line.
    Mr. David Scott of Georgia. Oh, we hope so, man. We will be 
pushing.
    Secretary Perdue. Before you----
    Mr. David Scott of Georgia. You are the running back that 
can get it through from your days at the University of Georgia.
    Secretary Perdue. While you were out, I mentioned the fact 
my visit to Florida A&M, your alma mater, and how impressed I 
was with the students. If you could have seen the research 
projects that those students do, they would equal any land-
grant university in the country. I know you would be proud. 
Your colleague, Mr. Lawson, was there with us and we were happy 
to be there.
    Mr. David Scott of Georgia. Good. If it weren't for Florida 
A&M, I wouldn't be sitting here today.
    Secretary Perdue. Right.
    Mr. David Scott of Georgia. Thanks to that fine university, 
and of course, it is a land-grant school and I know they are 
grateful for your work on H.R. 51.
    Let me lift up in my last 15 seconds, I am concerned about 
cotton. I wanted to make sure we are able to get that cost-
share program and get the financial help to our cotton farmers 
that we need. As you know, Georgia is number two in cotton, 
next to my good friend Mr. Conaway's Texas.
    Secretary Perdue. We had worked on that prior to really 
after the hurricanes, kind of in the midst of y'all's 
discussion regarding the disaster supplemental. We had a PAYGO 
solution in that. We still have that prepared to go for the 
2016 crop. We were advised to sort of wait and see how the 
disaster supplemental goes. It looks like if it continues to go 
on and not be funded, then we may have to go ahead with the 
cost-share program there. But that would be for the 2016 crop 
in that way, so we have something in the pipe ready to go, and 
it is a matter of timing on that.
    Mr. David Scott of Georgia. Well that is great. Thank you, 
Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
Abraham, 3 minutes.
    Mr. Abraham. Thank you, Mr. Chairman, and Mr. Perdue, 
thanks for being here. Thanks for allowing and facilitating the 
USDA to be more customer service related, certainly more 
responsive to requests. It has been a delightful turn of 
events. Thank you for coming to Louisiana, talking to my rice, 
sugar, cotton, and corn farmers there. It is much appreciated.
    I am going to kind of pony on Mr. Scott's statements as far 
as cotton. As we know, the 2014 to the 2016, even the 2017 
years, have been tough on cotton. We are to the point in 
Louisiana where production costs are about $100 more than 
actual revenue costs, it is a net loss situation. So we 
understand with Chairman Conaway's leadership, we will address 
that in the farm bill and make some steps to at least remedy 
some of that, because there is such an urgent need. And I am 
grateful for your commitment, as Mr. Scott has alluded to, for 
the short-term reliefs for our 2016 and now 2017 cotton 
producers, mainly for the fact that they can simply still go to 
the bank and be bankable for another year. And as you know, 
having been a grower yourself, that is critical to be able to 
walk into a bank and obtain a loan just to put a crop in the 
ground.
    In your opening statement of how optimistic our farmers are 
when they know the odds are against them, it was a testament to 
their courage and their willpower.
    Again, just a thanks for what you are doing, and looking 
after all our farmers. And I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. Evans, 3 
minutes.
    Mr. Evans. Thank you, Mr. Chairman. Mr. Secretary, I would 
like to thank you for the recognition of Walter B. Saul High 
School of Agricultural Sciences and our future farmers, and you 
raised a highlight on that. I really appreciate that.
    I know you are a veterinarian, and I am concerned we have 
University of Penn in the Commonwealth of Pennsylvania. Can you 
share with me the important veterinary programs that you look 
to strengthen as it relates to the nation's veterinarians?
    Secretary Perdue. Well certainly. If I understand the 
question, USDA employs a lot of veterinarians. They are at the 
forefront of our food safety program, and very critical in 
that. My short time in the Air Force, my job was public health 
and food safety, so obviously the veterinary education aspect 
from how we can encourage that, particularly in the food animal 
medicine perspective. As you well know from your constituents, 
it is difficult to get larger and food animal veterinarians in 
many parts of the country today. We ought to look at, again, 
some scholarships similar to what we have with medical students 
where they go and practice in areas that are needed and vital 
where they get some, again, loan forgiveness in those areas.
    As a veterinarian, I am very close to that community and 
anxious. I may have told you this before, but my wife and I 
endowed a scholarship at the University of Georgia for students 
in the Department of Agriculture who want to go into food 
animal medicine, because it is a critical need and our ranchers 
and producers need that.
    Mr. Evans. Thank you. Mr. Secretary, I was at the 
Pennsylvania Farm Show, just like as you have visited one of 
the best farm shows in the nation. Dairy farmers, the Margin 
Protection Program is not providing the needed relief. Is there 
anything that the USDA can do through administrative actions to 
improve this vital safety net for our dairy farmers?
    Secretary Perdue. Well again, what we did do this fall was 
to allow farmers who had signed up for the Margin Protection 
Program to withdraw from that, and by the virtue of the number 
that withdrew, 75 percent of those, it gave us an indication 
this program wasn't working for them. I know Ranking Member 
Peterson and I have had some discussions about how to improve 
that program. Again, that is really and vitally needed in the 
farm bill coming forward about how we utilize that program, 
whether it is margin protection or LGM program for dairy 
producers. That is the sector, as we indicated, that didn't 
fare as well in the 2014 Farm Bill as we would hope for.
    Mr. Evans. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    The Chairman. The gentleman yields back. Mr. Marshall, 3 
minutes.
    Mr. Marshall. Mr. Secretary, let me start by saying thank 
you for your comments on the section 199A. Like you, we are all 
looking for a solution that is fair to all concerned, so I 
greatly appreciate that.
    I want to address the biggest problem in Kansas, and I say 
not agriculture, but the biggest problem in Kansas, because 
Kansas is agriculture and agriculture is Kansas. The biggest 
problem in Kansas is the price of wheat, the price of sorghum, 
the price of corn, the price of milk, the price of beef, and 
the price of pork. You have addressed NAFTA already. Please 
take the rest of my time and address what you are seeing the 
future looks like in Japan. It is a huge market for our wheat 
and our beef. It is a $200 million problem, going forward, with 
our competitors when it comes to the wheat issues as these 
tariffs come in place, and I want you to be reassured, I 
interviewed ten people from Japan and they all preferred Kansas 
beef over Australian beef. So it is ten out of ten people. So 
we would like to get that Kansas beef over there.
    Secretary Perdue. I understand. Again, you may have heard 
and I was very encouraged to hear our President in Davos talk 
about potential interest in rejoining TPP. As we know, the TPP 
11 have moved forward, but when we talked to Japan, when we 
look at the other countries involved in TPP, they were very 
regretful that the United States was not part of that. And I am 
going to take the President's word. Again, he is a tough 
negotiator. He is American, and he believes in America; but, 
again, we understand how vital trade is to our ag economy, not 
just in Kansas, but virtually everywhere else. Wheat has not 
fared that well. We were on a good road with sorghum. I never 
thought I would see sorghum at a premium to corn, and that is 
why the hit took a place with China. Even an announcement there 
was disheartening in that regard. NAFTA, as I indicated 
earlier, I am hopeful that we can really close that out and 
have an improved NAFTA, a modernized NAFTA that is better for 
the American producers as we go forward.
    But our farmers need certainty. They are optimistic. They 
are resilient. They are courageous, but like any business, they 
really deal in uncertainty, and there is a lot of trade anxiety 
out there. So I wish there was some way that the Secretary of 
the U.S. Department of Agriculture could just waive a magic 
wand and fix prices. You and I both know that is not possible, 
but you are absolutely right. The farmer is great for the ag 
economy. It is great for the economy in general, because if 
farmers make money, they are going to spend money. And they 
rotate it through the economy in a mighty way. You see that 
green paint riding everywhere, as well as other things, but it 
is good for main street. The ag economy in those rural Kansas 
communities is good for main street as well.
    Mr. Marshall. Thank you for the hope, and I yield back.
    The Chairman. The gentleman's time is expired. Mr. Panetta, 
3 minutes.
    Mr. Panetta. Thank you, Mr. Chairman, and Mr. Secretary, 
good morning. Thank you for being here, as always, as we are 
coming up on the 2018 Farm Bill, and obviously I appreciated 
meeting you out in California. Although, please know that the 
salad bowl always has an open welcome for you to come there on 
the Central Coast of California as well. And if you go there, 
you are going to hear the number one issue that is out there on 
the Central Coast, and probably number one issue in California 
when it comes to our agriculture, and that is labor, as you 
mentioned.
    You have shown a great deal of empathy and understanding 
when it comes to this issue and how it affects our specialty 
crops on the Central Coast and in California, and I appreciate 
what you have said, and I appreciate some of the actions that 
you have taken. I appreciate the fact that you have hired a 
senior advisor, Christy Boswell, to address these issues. What 
I would like to find out is as you, as we know, immigration 
reform, dealing with this issue is very politically sensitive, 
and policy complex. But has Ms. Boswell given you any sort of 
advice and how we can think outside the box in dealing with 
addressing our workforce issue? And I know that in your Report 
to the President of the United States from the Task Force on 
Agriculture and Rural Prosperity, page 29 you talked about the 
H-2A. I think that is the only area in that report that you 
deal with labor in agriculture, and you mentioned interagency 
efforts to improve H-2A.
    My second question would be then can you elaborate on those 
interagency efforts as well?
    Secretary Perdue. Certainly. As you mentioned Christy 
Boswell, we have worked diligently with Chairman Goodlatte on 
his bill. Obviously, that was one of the issues your western 
growers didn't address many of the challenges they have, that 
is, the transition from their current workforce into a new 
program here, and that is one of the things we would like to 
see addressed. We are working with DHS and helping them to 
understand that the criminals they are looking for are not on 
our farms or out there producing food for the Americans as well 
as worldwide, and they are not there. It is a challenge, 
obviously, because as the agents show up, it affects everyone 
in the community. What you know and I know is that many of 
these workers have been on some of these farms for years. They 
become part of the family. In fact, many of them have very 
serious management responsibilities in that. So I would love to 
see some sort of transition environment where we could 
recognize that and move toward a legal workforce.
    The problem with H-2A, it involves certainly Department of 
Labor, Department of Homeland Security, as well as Department 
of State. Now some of the ideas that Chairman Goodlatte has in 
his bill we embrace. We think that farmers typically would be 
more comfortable as an intake mechanism of USDA rather than 
DOL. There are a lot of very onerous moving parts dealing with 
the H-2A program, and many of your producers have given up 
using that as a tool. That only contributes to, again, the 
perpetuation of the non-legal workforce that we have in 
America, and we would love to see that resolved.
    Mr. Panetta. Thank you.
    The Chairman. The gentleman's time has expired. Mr. Dunn, 3 
minutes.
    Mr. Dunn. Thank you very much, Mr. Chairman. Thank you, Mr. 
Secretary, for being here today, and thank you for your 
commitment in your recent 2018 Farm Bill & Legislative 
Principles to make America's forests work again.
    The district I represent has many counties that are 
dependent on working forests to fuel their economy, and so I 
promise that you in addition to promoting sound management of 
working forests, I am going to look forward to working with 
your Department on legislation such as H.R. 1380, Timber 
Innovation Act of 2017, to spur innovation of the forestry 
sector and to grow those markets.
    On another note, as you know, the Food and Drug 
Administration regulates products of animal biotechnology. 
Regrettably over the last 20 years, the FDA has managed to 
approve just two animals. The developers (AquaBounty 
Technologies, Inc.) of the GE salmon first applied for FDA 
approval in 1995, and received that in 2015, 20 years later. 
The producers (Oxitec Ltd.) of GE mosquitoes applied for FDA 
field trials in 2011, did not get approval to do those trials 
until the Zika outbreak came out in 2016. So this undertow of 
the FDA's regulatory regime is preventing potential products 
live avian influenza resistant poultry and foot-and-mouth 
resistant cattle from being commercialized.
    Can you tell us if the USDA plans to engage the FDA on 
their broken animal biotech system, and have you or has the 
USDA ever considered seeking to regulate the animal biotech 
products in house?
    Secretary Perdue. You mentioned two issues close to my 
heart. Obviously one is the forestry issue, and to make forests 
work again, we strongly need the legislation that is before 
Congress now. We need both sides to come together, not only 
with fire funding, but also with forest management where we can 
actually do that. Without the forest management proposals, the 
funding doesn't really matter. We are going to continue to 
fight forest fires. So I hope you and your colleagues can ask 
your leadership to make sure we get that done here quickly. 
There is a window of opportunity that is passing on that, so in 
order to make forests work again, we need those tools.
    You mentioned a really interesting issue. We have just 
signed an agreement with FDA over cooperation. Dr. Gottlieb and 
I have visited on a fairly regular basis on different areas. 
This is one particular that has not come up over the veterinary 
regulation, the veterinary approvals, but I love your last 
suggestion. Again, from a pharmaceutical perspective dealing 
with animals, we would love to have that responsibility. We are 
making progress on a personal level there, there are embedded 
attitudes in all these agencies that sometimes don't have the 
same desire for collaboration that the leadership does. Dr. 
Gottlieb and I are becoming fast friends over the kinds of 
things that we can talk about, particularly FSMA and those 
types of issues, but this is one area that I have not pursued. 
But you have given me another idea.
    Mr. Dunn. I will help you. I yield back.
    The Chairman. The gentleman's time has expired. Ms. 
Plaskett, 3 minutes.
    Ms. Plaskett. Thank you very much, and good morning, sir.
    Secretary Perdue. Good morning.
    Ms. Plaskett. Thank you for being with us here.
    The supplemental appropriation bill for disaster relief 
that the House passed before adjournment included $2.6 billion 
for crops, trees, bushes, vines, et cetera, losses due to the 
2017 hurricanes, including Irma and Maria. In order to be 
eligible for funding, all producers receiving payment must 
purchase crop insurance, and it says, ``Where crop insurance is 
available for the next 2 available crop years and producers 
receiving payments shall be required to purchase coverage under 
the non-insured Crop Disaster Assistance Program.'' And that is 
to be determined by the Secretary.
    I don't know if you are aware, USDA does not offer crop 
insurance in the Virgin Islands, which of course received 
enormous damage during the hurricanes. If this bill is approved 
by the Senate and signed into law, would it be possible and 
would you be willing to use the discretion provided to you 
under this program to help producers in the Virgin Islands 
purchase coverage under NAP so that they may be eligible for 
their share of this funding that has been put in the disaster 
aid package?
    Secretary Perdue. I think that is absolutely the intent of 
the legislation as you read, and we would certainly commit to 
that when you read the fact that where crop insurance is not 
available, that is exactly what we would expect to have happen.
    Ms. Plaskett. That would be great. I appreciate that.
    And as you may recall, a special ad hoc relief program was 
created by the Department of Agriculture in October for farmers 
in Puerto Rico which provided vouchers to buy feed from local 
dealers. This was not extended to the U.S. Virgin Islands, 
which were similarly devastated by Hurricane Maria. Do you know 
why that was not extended to them?
    Secretary Perdue. I am not aware of the request that we had 
there. Puerto Rico's dairy industry and poultry had some 
specific requests that we addressed, too, and I am not aware 
that we had those from the Virgin Islands.
    Ms. Plaskett. So it was mostly for livestock, for poultry, 
you believe?
    Secretary Perdue. Yes, it was for the feed for the dairy 
industry primarily. I don't know why we would have not 
responded in likewise to the Virgin Islands, had we had similar 
requests.
    Ms. Plaskett. Okay, thank you.
    A big issue for agriculture in our island territory is lack 
of data, in part because the local agriculture offices have 
limited means to collect data chronically. What is the status 
of the Department's assessment of agriculture and rural 
community needs in the Virgin Islands, and what actions has the 
Department taken to get more USDA expert staff to help the 
badly damaged agriculture sector there where lack of technical 
assistance has been an issue, even before the two Category 5 
hurricanes?
    Secretary Perdue. I don't know that I can answer 
specifically, other than committing to you that we will look at 
that from a data-driven perspective. Our fiscal service, we 
rely on data quite a bit. We talk about being facts based, data 
driven. We can't make good decisions if we don't have good 
data, so I will have to look at that and see how we can improve 
our efforts in our territories.
    Ms. Plaskett. We would appreciate that. It has been a real 
issue for us over the years.
    The Chairman. The gentlelady's time has expired.
    Ms. Plaskett. Thank you.
    The Chairman. I hate to be abrupt, but they have called 
votes and we are trying to get everybody through before we go 
over there, so thank you for that. Mr. LaMalfa for 3 minutes, 
and again, we are going to be pretty tight on the time.
    Mr. LaMalfa. Thank you, Mr. Chairman, and again, Mr. 
Secretary, I really appreciate your accessibility and your 
diligence in traveling the country and hearing all our issues. 
A lot of effort on broadband, greatly appreciated.
    Bringing it back to some California issues, we produce some 
of the highest quality food and the safest handled food in the 
country, and so when you look at the FSMA, the Food Safety 
Modernization Act, I am afraid there might be a little more 
than what is needed. Yes, we had a flare-up over 10 years ago 
in the spinach and some of the other leafy greens where E. coli 
and in some cases Salmonella came up, and that is being 
addressed. But what I am afraid of is that the bureaucracy of 
this is going to go so far that we are going to continue to 
hamper the ability to grow these products in California or the 
U.S. effectively.
    When you are talking about bird droppings which, folks, 
these things grow outside, okay, and not allowing the food to 
touch the soil from which it came, it seems, again, the 
bureaucracy might be overreacting to what had been a serious 
problem, but with the protocols in place, we have seen pretty 
good success since then.
    Mr. Secretary, I guess we can go a couple different ways on 
this. We can see how the new regulations are going to indeed 
impact growers in our states, or maybe try and get ahead of the 
curve a little bit and fix the problems preemptively that could 
flare up and still have a very safely grown product.
    My understanding is that most of the authority for the 
produce safety rule were indeed given over to HHS and the FDA. 
Some of us like to see the USDA have a lot wider role in that, 
since you all understand farms and that more directly. And I 
know that you have been really working for regulatory relief. 
Is there anything Congress can do legislatively to help in the 
farm bill more immediately that could make your job, and I know 
Dr. Gottlieb over there with the FDA as a Commissioner has been 
really working well and trying to work through this path. What 
best thing could we do to get this to be a more farmer-friendly 
and USDA-friendly process?
    Secretary Perdue. Sir, I couldn't agree with your concern 
more. It has been one of my major concerns as I look at how we 
create and produce a safe food supply. We probably overpaid the 
meter a little bit with the Food Safety Modernization Act. You 
mentioned bird droppings. I mean, people have been written up 
for deer tracks out in the fields as well. These are not 
biological sanitary sterile conditions over which these 
vegetables are grown.
    Again, as you know, Congress gave the Food and Drug 
Administration the primary oversight of that, and while Food 
and Drug Administration does a lot of good things, they are not 
experts in the field of examination. There are a lot of 
challenges that Dr. Gottlieb is trying to delay. I would 
welcome Congress to look at this again, see if there is any 
opportunity in the farm bill to rebalance what is the balance 
between safety and productivity here. No farmer produces a crop 
intentionally to harm people or handle it in a way to do that, 
but some of the regulations are, as we are in this deregulatory 
environment, it is going to be a huge regulatory issue. I am a 
little bit concerned that some of the unintended consequences 
of FSMA may move us into the same area as the Endangered 
Species Act and those kind of ways, so your concern about that 
is my concern, and I would implore you and your colleagues to 
look at that in the farm bill to see if there are opportunities 
you may have.
    The Chairman. The gentleman's time has expired. Mrs. 
Bustos, 3 minutes.
    Mrs. Bustos. In the interest of time, I will ask one of my 
three questions because I know we have been called for votes.
    But Mr. Secretary, thank you for being here, and I 
appreciated one of your earlier answers where you mentioned 
green paint in reference to John Deere, and that is where I am 
from, Molina, Illinois, where the world headquarters for Deere 
is. But if you go east of that, it is the home of yellow paint, 
which is Caterpillar in Peoria, which is also part of my 
Congressional district. And in Peoria, Illinois, is the largest 
USDA ag lab in the entire country, and you and I have had a 
chance to talk about that before, but in the President's 
earlier budget, he had slated that for closure, and thank you 
for your help in intervening and making sure that didn't 
happen.
    And I know you have also mentioned the importance of being 
able to hire staff. That is something that has been important 
to you, and I appreciate that as well. And also the importance 
of attracting and retaining a long-term workforce.
    It is my understanding that the hiring of much needed staff 
at the ag lab in Peoria in particular, and this might apply to 
other ag labs as well, but it has been delayed. There have been 
some challenges filling slots there, and I didn't know if you 
were aware of that, but I really wanted to ask you if you had 
an understanding of why it is happening. We have these job 
openings. I know that the hiring freeze ended in April of 2017, 
but what are you hearing about that and perhaps what we can do 
and how we can work together to address that?
    Secretary Perdue. Certainly. Not just in our ag labs, but 
obviously USDA-wide we are trying to right size that workforce 
in a way. I have also tried to respectfully wait for our Under 
Secretaries to be in place, because I am going to hold them 
responsible for those, and that is one of the delays there.
    Mrs. Bustos. Okay.
    Secretary Perdue. And that is just my preference is if I am 
going to hold them responsible, I want them to understand and 
to help guide that workforce as well. But we are making some 
hires in different areas. I have to look at the specific ones 
in the research lab there, but we are hiring in the Forest 
Service, we are hiring in FSA, and we are hiring in AMS and 
other places that way. And a way to understand what the 
attrition rate is, but it is the right people in the right 
place doing the right things is our goal, and part of the delay 
has been trying to get people in from all the way at the top 
down, but we can look at that specifically. We do have some 
personnel gaps in various agencies.
    Mrs. Bustos. Is there anything we can do to be of help on 
this? I mean, these are some of the best paying jobs in our 
community there, and I really want to move on that if we can.
    Secretary Perdue. Again, urging your colleagues to move on 
our nominees and getting people in place.
    Mrs. Bustos. You think that is the biggest problem on this?
    Secretary Perdue. Yes, right.
    Mrs. Bustos. Okay, all right. Thank you, Mr. Secretary.
    Secretary Perdue. Thank you.
    Mrs. Bustos. I yield back.
    The Chairman. The gentlelady yields back. Mr. Comer, 3 
minutes.
    Mr. Comer. Thank you, Mr. Chairman, and Mr. Secretary, it 
is great to have you back. Before I ask my one question, I want 
to thank you for all that you do and all the attention you pay 
to the FFA and 4-H. Those of us in the agriculture community 
notice that and we really appreciate your commitment to the 
next generation of farmers.
    People in my district are very happy with the tax cuts 
plan, very happy with the focus on reducing the regulatory 
burden. The one concern that a lot of the farmers have, and you 
and I have discussed this in the past, is trade. Obviously with 
the commodity process where they are, what exactly is the 
process now? I know that the President has kind of changed his 
stance a little bit on NAFTA and TPP. What is the process, 
moving forward? Are there representatives from the USDA 
negotiating with some of these countries like Vietnam, Taiwan, 
South Korea? Are there representatives from the U.S. Trade 
Representative's office? What exactly is the process?
    Secretary Perdue. Well the way it works is the USDA Under 
Secretary Ted McKinney, who is the head of Foreign Agricultural 
Services there, he is our chief salesperson. Now I have used 
this metaphor before. It is a little bit like some banks today. 
They have salespeople and they have credit people, so Ted 
McKinney is our salesperson, and Ambassador Lighthizer is our 
credit check.
    Mr. Comer. Right.
    Secretary Perdue. And so they actually do the legal 
negotiation of the deals, but we are out there trying to get 
interest worldwide. Ted McKinney has hit the ground running. He 
is a great professional. He has already logged 30,000 miles 
there internationally and domestically here over trying to 
benefit trade.
    We think there are some real opportunities in the Asian 
Pacific area for countries, maybe not those big hits like 
China, but there are some routing areas there that we are 
focusing on moving into.
    Mr. Comer. Well I want to thank you, because I am confident 
that you played a big role in helping the President alter his 
message a little bit to help benefit agriculture and trade is 
probably the most important thing we can do to help stabilize 
the commodity market, so I appreciate you.
    Thank you, Mr. Chairman. I yield back.
    Secretary Perdue. Thank you.
    The Chairman. Thank you. The gentleman yields back. We are 
getting real close to having to leave, if my remaining 
colleagues can try to go to 2 minutes, I would appreciate it. 
Mr. Lawson, 3 minutes, but if you could shorten that, we would 
appreciate it.
    Mr. Lawson. Yes, I want to be real short.
    Secretary, welcome and I just want to thank you for coming 
to Florida A&M. The interaction with the students, the FFA, the 
4-H club that came from the high schools and stuff was really, 
really great. Your leadership and trying to make sure that with 
those agriculture students, the opportunity that will be 
available for them to go into farming and all that was really 
great.
    I don't have a question, so to speak. What I would just say 
as how you work on how to alleviate fraud and abusive behavior 
and all this other stuff with the SNAP program, I would like to 
keep abreast of it because during the course of the hurricane 
and everything, that program was so important to people who 
didn't have anyplace else to turn. I know the Chairman probably 
is going to be working on that in the farm bill, but anything 
that I can do and have the opportunity to sit down with you, I 
would be willing to do it.
    And with that, Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back. Thank you, sir. 
Mr. Arrington, 3 minutes.
    Mr. Arrington. Thank you, Mr. Chairman. Mr. Secretary, good 
to see you. I echo what my colleagues have said in that you 
have been incredibly accessible, and your leading by example 
with respect to your principle of customer service and it is 
just quite amazing, really, with the job that you have. Every 
time that I have needed to talk to you, you have made yourself 
available and I just thank you so much for that. Thanks for all 
your efforts on cotton and the section 199A. You get it. You 
understand it. You are engaged, and so greatly appreciate that.
    Because I have so many questions, but in the interest of 
time, to me, the biggest issue for us all as ag advocates is 
the culture of this country and the culture and the mentality 
of the Representatives here in Washington, especially urban and 
suburban, on ag safety net, and that it is not just the 20 
million jobs, it is not just rural economic development. It is 
national security. It is agriculture independence, food 
security, as you have said so eloquently. While we are trying 
to influence the culture here, I am praying that you are 
influencing the culture of the White House and the 
Administration. The President has a heart for the forgotten 
man. Does he understand and does the Administration--we had a 
briefing yesterday with Mick Mulvaney, good guy. I think his 
heart is in the right place. I don't know that he understands 
this issue of the national security implications of the ag 
safety net and getting it right.
    Tell me about that and that mentality among your peers 
throughout the Administration. Are you making headway there, 
because I know you are a champion for it?
    Secretary Perdue. We do. We have weekly trade meetings, and 
obviously people know what I am going to say, but we keep on 
saying it. Again, the interesting thing from your concern, I 
think the NSC gets it. The DOD gets it, and other people of 
national security jobs understand that food security is 
national security. We are blessed in this country not to have 
to import food. You think about the efforts over oil, what 
would happen if we were battling over food. And that is a 
benefit.
    The problem is some people are so complacent about that. We 
have taken it for granted, and it is insidious over the 
policies that we make if we don't stay on top of that through 
research and other types of safety net products. It can be gone 
before we know it, and it is difficult to recover. So we are 
trying to spread that message certainly internally and 
externally all across the country.
    The Chairman. The gentleman yields back. Mr. Faso, 3 
minutes.
    Mr. Faso. Mr. Chairman, thank you. I will be very short and 
maybe your staff can reply in writing to these questions.
    First is not a question. Mr. Secretary, you are a great 
Secretary of Agriculture. You are a credit to the Department 
and our country. Thank you so much for your service.
    Second, this is the first question. The meat processors in 
my area are having a terrible time getting access to a 
facility. I can't get a USDA grader to come in and inspect 
chickens. They have to come from Pennsylvania or Connecticut. 
It poses an expensive situation for the farmer, so I would like 
to talk to the Department about that. Third, how can we enhance 
dairy consumption, milk consumption in particular? You have 
done a great job allowing the flavored low fat milk into the 
school lunch program. We need to really promote that to get a 
new generation drinking good quality milk. And fourth, Mr. 
Secretary, I really appreciate your efforts on broadband and it 
is vitally important to our rural economies, and I hope that we 
can continue to work with you.
    Mr. Chairman, I will yield back my time.
    The Chairman. Thank you, sir. Mr. Allen, 3 minutes.
    Mr. Allen. I, too, will be brief, but Mr. Secretary, I just 
wanted to let you know how proud Georgia is of you and your 
work here in this body and at USDA. Thanks for your work 
clarifying the domestic program. That has been a big help to 
our folks.
    I do know that there are real concerns out there with rural 
credit. I met with a group of our farmers. They need some 
flexibility, and I will be happy to meet with your folks about 
that and about that meeting, but we do need some flexibility 
because credit it seems to be tight, and our farmers, as you 
know, are really in a tough spot.
    As far as cotton, thank you for your help with that. 
Obviously we have to get something done on that and I 
appreciate your efforts there.
    And then I will just also talk about rural broadband. I 
mean, that is a critical issue. But again, you are on top of 
these things, and I really appreciate what you are doing. Thank 
you for all you are trying to do over there, and if I can help 
you with anything, please don't hesitate to contact me. I yield 
back.
    The Chairman. The gentleman yields back. Mr. Bacon, 3 
minutes.
    Mr. Bacon. Thank you for being here, sir. You are doing a 
great job.
    I want to talk to our folks in Nebraska. Number one concern 
is affordable crop insurance, and two, they are really worried 
about trade. Every other row of soybeans is exported, every 
third row of corn, largest beef exporter. So they are very 
nervous about the talk that comes out of the Administration, as 
you know, so we got to really work hard to make sure we don't 
throw the agriculture export successes out as we deal with 
other issues in NAFTA.
    I want to ask you a question for the record, but we will do 
a written response. What is your assessment for FMD vaccine, 
and how can we get to that the best? I hear a lot of that from 
our pork and cattlemen, and I will just formally ask that 
question down the road and we can get a response back.
    The question I have for you today is there is a series of 
articles out right now talking about how we are losing about 
$60 million in pork due to a disease called PRRSV (porcine 
reproductive and respiratory syndrome virus), and there is a 
way to do gene editing to stop it, but FDA treats it as a heavy 
drug treatment, and therefore, it is under heavy regulation. We 
can't get this thing treated like we could. Can we ask FDA to 
change its approach? Is there a better way to go about it? 
Thank you.
    Secretary Perdue. Okay, thank you.
    The Chairman. Well Mr. Secretary, again thank you so very 
much for being here. I appreciate your willingness to answer 
the questions for the record. I was particularly thankful for 
your comments about FMD and getting your team to give us better 
data, better information about the various opportunities that 
we have in that regard. You are doing a terrific job at USDA. 
You have become a terrific partner, and your agency has as 
well. Thank you for helping us get a farm bill written, and we 
look forward to working with you on the implementation values 
once we get this thing done and in on time. So thank you for 
being here.
    The chair would remind Members, before we adjourn, under 
the Rules of the Committee, today's hearing will remain open 
for 10 calendar days to receive additional materials, 
supplemental written responses from the witness. With that, the 
Committee on Agriculture hearing is adjourned.
    [Whereupon, at 11:16 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    Submitted Statement by Hon. Frank D. Lucas, a Representative in 
Congress from Oklahoma; on Behalf of Todd Lafferty, Co-Chief Executive 
    Officer and General Counsel, Wheeler Brothers Grain Company, LLC
    Our locations are in close proximity to several co-ops, in some 
locations less than 1 mile. If section 199A is not changed, a producer 
with any tax liability will have incentive to take their grain to a 
cooperative over us. We are a fourth generation family owned 
independent grain company that was started in 1917. Section 199A stands 
to destroy the relationships we have built over the past century 
because we cannot compete with the incentives producers now have under 
section 199A to take grain to cooperatives. We have had an accountant 
tell us that he is advising clients they are better off taking their 
grain to a cooperative and that we need to reorganize as a cooperative. 
One of our customers inquired whether he will be penalized by selling 
grain he currently has in storage with us. We have not had a forward 
contract entered into with us since section 199A was passed. Even if 
section 199A is fixed, we are concerned that some customers have 
already forward contracted with cooperatives as a result of section 
199A, and we will not discover this until harvest. We are deeply 
concerned about the future of our company if section 199A is not 
changed promptly. We will be forced to reorganize as a cooperative, 
merge with a cooperative, or sell to cooperative if there is not a fix 
to level the playing field.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Sonny Perdue, Secretary, U.S. Department of 
        Agriculture
Submitted Questions by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. I am hearing concerns about the enforcement of 7 U.S.C. 
1981a(b), which is a moratorium on acceleration and foreclosure 
proceedings against any farmer or borrower who has a valid pending and 
accepted discrimination claim against USDA. Please provide us with the 
following data:

  (a)  number of Title VI and Equal Credit Opportunity Act program 
            complaints filed against the Farm Service Agency and 
            private guaranteed lenders; and

  (b)  number of moratoriums on acceleration and foreclosures currently 
            issued in compliance with 7 U.S.C. Section 1981 a.(b).

    Answer. Ranking Member Peterson, as of March 15, 2018, there are 78 
open civil rights complaints that involve Farm Service Agency (FSA) 
Farm Loan Programs, lower than we have historically seen in the past. 7 
U.S.C. Section 1981a(b) does not apply to loans made by private sector 
lenders and guaranteed by FSA. FSA has no civil rights enforcement 
authority over private-sector lenders--complaints must be filed with 
the appropriate financial regulator, based upon the size and type of 
lender (Consumer Financial Protection Bureau, Federal Deposit Insurance 
Corporation, Office of the Comptroller of the Currency, Federal Reserve 
Board, or Farm Credit Administration).
    As of March 15, 2018, there are 80 cases for which further 
servicing or liquidation action is suspended pending resolution of a 
civil rights complaint.
    FSA implemented the requirements of 7 U.S.C. 1981a(b) several years 
ago. FSA regulations require that once a Civil Rights complaint is 
filed, FSA may only service the loan to the point of acceleration, and 
then hold further action in abeyance pending the outcome of the 
complaint.

    Question 2. What is the status of hiring in the agencies with field 
presences, FSA, NRCS and the Forest Service? Is there a plan to address 
vacancies in field offices, many of which have been empty for months? 
Most folks in the countryside, both employees and customers believe 
there is a hiring freeze in place.
    Answer. USDA is currently hiring, and across the Department we are 
taking a thoughtful, strategic, and data-driven approach to hiring. In 
regard to your specific question about the Farm Production and 
Conservation (FPAC) mission area, NRCS and FSA are establishing 
productivity expectations to ensure the optimum performance of the 
workforce and to make sure our hires are placed in the right locations, 
focused on the right work, and doing that work as efficiently and 
effectively as possible. Additional hiring is being evaluated across 
the mission area, with a goal to focus the available hiring on the most 
critical workload that best addresses customer needs, and with keen 
attention to optimum efficiency and effectiveness.
    The Forest Service is also currently evaluating its hiring needs 
with a focus on field-based vacancies in order to deliver results on 
Forest Service mission priorities and USDA 2018 Strategic Goals.

    Question 3. Under the ``Management'' header in your farm bill 
principles, you mention ``provide USDA full authority to responsibly 
manage properties and facilities under its jurisdiction''. Can you 
elaborate on what you mean by that?
    Answer. In order to be nimble and successfully manage the 
Department in a timely, responsible manner, USDA needs to have the 
authority to manage its leases, procurement, vehicle fleet, properties, 
etc., and the taxpayer dollars appropriated to us efficiently and 
effectively.

    Question 4. Can you elaborate on the FY19 budget submission and 
appropriations request for the Office of Public Partnerships & 
Engagement, including the specific funding lines for the Office of 
Advocacy and Outreach as well as the Office of Tribal Relations and the 
various coordinator positions such as the Military Veterans 
Agricultural Liaison and Center for Faith Based and Neighborhood 
Partnerships.
    Answer. The FY 2019 appropriations request for the Office of 
Partnerships and Public Engagement (OPPE) is $1.7 million. This amount 
includes: $1.2 million in discretionary funding resulting from the 
transfer of the former Office of Advocacy and Outreach (OAO) 
appropriation into OPPE, and about $500,000 resulting from the transfer 
of the Office and Tribal Relations (OTR) funding into OAO. In addition, 
the budget includes $10.5 million in activities for which funding is 
provided through the Departmental Shared Cost Program, including: $8 
million for outreach to higher education institutions and their 
students; $1.7 million for the Intertribal Technical Assistance Network 
to support Tribal member engagement in USDA programs; $343,000 for the 
Faith Based and Neighborhood Partnerships activities; and other 
advisory committee and outreach activities.

    Question 5. What do you envision as your role in advocating for 
corn, sorghum and soybean farmers who have invested in biofuels 
infrastructure? Will you be advocating for the Renewable Fuel Standard?
    Answer. The RFS plays a vital role in rural America. It serves as 
an important source of demand for corn, soybeans, sorghum, and other 
crops--and as such is a strong supporter of prices and farm incomes. I 
also understand the RFS creates well-paying, stable jobs in our rural 
communities at a time of declining income and a poor agriculture 
economy. I have and will continue to advocate for RFS.

    Question 6. Have USDA economists shown you the impacts on commodity 
prices with any reductions in RFS goals or what the positive impact 
would be of resolving the Reid Vapor Pressure issue that would allow 
more ethanol to be blended in summer months
    Answer. Here at USDA, we have spent a great deal of time and effort 
to understand this complex subject. Having been a grain merchant in the 
past, I clearly understand that reducing corn demand will have a 
negative effect on commodity prices, and USDA's economists have 
confirmed that for me.
    I have consistently responded that reductions in the volumes 
outlined in the RFS, specifically the 15 billion gallons accessible to 
corn ethanol, are detrimental not just to corn prices but other crop 
prices and to farm income and are incompatible with the President's own 
statements on maintaining the Renewable (fuel) Volume Obligation (RVO).
    I also understand the desire to reduce the costs of Renewable 
Identification Numbers (RINs) associated with the program. The Reid 
Vapor Pressure (RVP) waiver would allow for year-round blends from E11-
E15 (11% to 15%) and would bring down RIN prices by allowing 
flexibility in achieving the goals of the RFS, expanding the market for 
ethanol and the corn to make it. To that end, the RVP waiver, along 
with improved RIN market transparency are cornerstones to any updates 
to the RFS program.

    Question 7. The farm bill requires USDA to have an Office of 
Advocacy and Outreach (OAO), Office of Tribal Relations (OTR), and a 
Military Veteran Liaison. Yet the President's FY 2019 Budget Request 
proposes to delete references to all three entities, and instead to 
consolidate them into a single Office of Partnerships and Public 
Engagement (OPPE).

  <bullet> Do you intend to keep the names of the OAO, OTR, and 
        Military Veteran Liaison as part of the new OPPE?

  <bullet> Please explain how the Administration will ensure that this 
        change complies with the farm bill directive to maintain an 
        OAO, OTR, and Military Veteran Liaison.

  <bullet> Do you intend to retain the purposes, functions, and other 
        statutory duties of each of the OAO, OTR, and Military Veteran 
        Liaison as part of the new OPPE? If so, please describe the 
        ways in which such purposes, functions, and statutory duties 
        will be retained?

  <bullet> Will any current functions of either OAO or OTR be 
        eliminated or modified? If so, which and how?

  <bullet> Will OTR continue to function as a special and unique office 
        through which USDA interfaces with sovereign Tribal nations?

    Answer. We are committed to carrying out these important functions 
regardless of name and to being in compliance with the farm bill. We 
will work with the Committee on any needed name changes. Our intent is 
that, while all functions, purposes and statutory duties of each office 
will remain the same, we will better coordinate them within OPPE and 
with agencies across USDA. The Director of OTR will continue to report 
directly to the Secretary, while also working closely with our Office 
of Partnerships and Public Engagement. OTR will also continue to serve 
as a single point of contact for Tribal issues at USDA, working to 
ensure that USDA programs and policies, such as the Rural Prosperity 
Taskforce, are developed in consultation with the American Indians and 
Alaska Native constituents we serve.

    Question 8. Does your reorganization of Rural Development effect 
state and local Rural Development offices at all? Do you still have the 
same amount of Rural Development employees at the state and local 
level? And do you have any plans to change the number of state and 
local Rural Development employees?
    Answer. As part of the reorganization and realignment of Rural 
Development (RD), we are examining mission support activities 
(administrative support, human resources, etc.) in order to maximize 
collaboration between the national office and state and local offices. 
We will be reviewing the program delivery requirements and the staff 
necessary to complete those activities. This review will allow targeted 
hiring within the state and local offices. As change occurs, any staff 
reductions at the state and local level will take place through 
attrition. Rural Development's ability to deliver the programs in its 
portfolio will not be impacted and the elimination of duplicative 
functions in the agency will allow the RD workforce to better focus on 
the agency's core mission.

    Question 9. Everyone in this room knows how bad the wildfires were 
this past year. The devastation reached well beyond our forests, and 
yet Congress still can't pass a suitable fix to the wildfire budgeting 
problem that is crippling the Forest Service's ability to get work done 
on the ground. To what extent have you been engaged with House and 
Senate leadership stressing the need to solve this problem? Are you 
demanding new forest management authorities must be a part of a 
wildfire funding fix?
    Answer. I was very pleased to see a forest fire funding fix 
included in the FY 2018 Omnibus passed by Congress. I made this a 
priority when I became Secretary and had ongoing discussions to 
encourage Members from both the House and Senate leadership to find 
ways to help the Forest Service get more forest management work done to 
reduce the fire hazard and protect local communities while creating 
rural jobs.

    Question 10. Please provide the Committee with the number of local 
projects, timber contracts, NEPA evaluations, road repairs, recreation 
enhancements, etc., which were either delayed or stalled because of 
fire borrowing this year?
    Answer. No projects were impacted by fire borrowing this year. The 
agency utilized prior year unobligated balances that were not tied to 
work on the ground.

    Question 11. Due to the runaway fire budget--both with fire 
borrowing and the rapidly expanding 10 year average--how much 
management on the ground do you think has been foregone just since 
you've been Secretary? How much more work do you think the Forest 
Service could do if we solved the fire budget problem and allowed the 
Forest Service to work at full capacity?
    Answer. While no projects were impacted by fire borrowing during my 
tenure as Secretary, I certainly appreciate that Congress enacted the 
much-needed fire suppression funding fix this year. The 10 year average 
increased $109 million from FY 2018 to FY 2019. In a relatively flat 
budget, this increase in fire suppression appropriations means a 
reduction in non-fire programs. The increasing role of wildland fire 
operations in the agency has caused a downward shift in the number of 
National Forest System personnel, down 39 percent from 1998 to 2016.
    During this time, reductions to non-fire programs because of the 
shift of financial and human resources to the Wildland Fire Management 
accounts have been significant. These programs not only support the 
Forest Service's restoration work that would help prevent catastrophic 
fires, but also the protection of watersheds and cultural resources, 
upkeep of programs and infrastructure that support thousands of 
recreation jobs and billions of dollars of economic growth in rural 
communities, and the range of multiple uses, benefits, and ecosystem 
services, as well as research, technical assistance, and other programs 
that deliver value to the American public.

    Question 12. This Administration has been focused on looking at 
trade deficits and the imbalance U.S. trade agreements have created for 
U.S. workers. USDA has the most influence on day-to-day market 
expansion for U.S. agriculture. Both FAS and APHIS work hard to resolve 
non-tariff and phytosanitary trade barriers that can cost U.S. 
producers millions of dollars in lost exports. And as you know the U.S. 
is an attractive market for foreign suppliers and granting foreign 
market access to the U.S. is a key to trade relations and lower 
consumer prices.
    To understand the cumulative gains and losses U.S. agriculture has 
had with USDA's policy decisions, I you provide the last 3 years on 
U.S. out-bound and foreign in-bound agricultural market access. I want 
to make sure that for the gains we are making in expanding market 
access for U.S. producers we are not unfairly creating an imbalance of 
foreign imports in the domestic market.
    Please include the date access was granted and the in-bound and 
out-bound volumes shipped by country and commodity. I hope we can gain 
a better understanding of which commodities are winners and losers at 
trade and put the appropriate resources where they need to be directed 
in USDA.
    Answer. The U.S. agricultural sector consistently produces a trade 
surplus. USDA projects the agricultural trade surplus to reach $21.0 
billion in FY 2018. In 2017, the agricultural trade surplus was $21.3 
billion. For 2016, this surplus was $16.6 billion. Major markets where 
the U.S. had large trade surpluses include China, a $15 billion 
surplus, and Japan with an $11 billion surplus. During the last 10 
years, U.S. agricultural exports have increased by $48 billion with the 
largest increases going to China ($11.3 billion); Canada ($6.4 
billion); Mexico ($6.0 billion) and South Korea ($3.4 billion).
    Over the last 10 years the commodities with the greatest growth in 
export values are soybeans ($11.6 billion); tree nuts ($5.4 billion); 
beef ($4.6 billion); and pork ($3.3 billion).
    The commodities with the greatest import growth include tropical 
products not produced extensively in the U.S. such as coffee, avocados, 
and bananas; fresh fruits and vegetables that are imported when U.S. 
production is out of season; and wine, beer, and specialty goods not 
produced in the United States. If the Committee has questions regarding 
specific commodities, USDA can provide additional information.
Submitted Question by Hon. Frank D. Lucas, a Representative in Congress 
        from Oklahoma
    Question. Sec. Perdue, Oklahoma just had the largest cotton crop 
harvested since 1933. This was a result of many contributing factors 
(rain, boll weevil eradica-
tion . . .) but chief among them was the awesome increase in the number 
of acres planted to cotton This increase is due partly to the fact that 
the price of wheat is roughly the same now as when I first started 
farming back in the 1980s and folks are changing their operations to 
get through this any way they can.
    This record crop has caused an immense ginning backlog throughout 
the state, some estimations state that we will still be ginning cotton 
come June. Producers are concerned that they will not have enough 
cotton ginned and marketed by the May 31st date of maturity for their 
FSA seed cotton recourse loans. Additionally, producers worried that 
the 2017 crop cannot be ginned in time to meet the RMA reporting 
deadline of May 1. Can you speak to these unique problems my 
constituents are facing?
    Answer. Congressman Lucas, seed cotton loans are recourse loans 
which must be repaid at principal plus interest to settle the loan. In 
cases where a recourse loan may be open after maturity, FSA has worked 
with producers to market the collateral rather than deliver it for 
settlement.
    Current RMA procedures allow producers in these areas to use 
temporary yields from the previous reporting period for 2017 in the 
event that production records are not available from the gin by May 1, 
2018. Current procedures also allow producers to report their cotton 
production using cotton module measurements, as well as gin records, as 
supporting production evidence. RMA has worked to explain these options 
to producers and Approved Insurance Providers in the area and will 
continue to monitor the situation to determine whether relief measures 
are needed closer to the May 1, 2018, production reporting deadline.
    FSA is aware that one or more individual gins is experiencing gin 
capacity issues. Like RMA, FSA is closely monitoring the situation and 
will make appropriate determinations based on circumstances that exist 
when recourse loans mature.
Submitted Questions by Hon. Vicky Hartzler, a Representative in 
        Congress from Missouri
Rural Broadband
    Question 1. Rural broadband is the number one economic issue across 
my district, and there seems to be consensus from all levels of 
government that we need to tackle this issue.
    Based on your work with the Rural Prosperity Task Force, what steps 
have you identified that USDA can take administratively to address the 
digital divide? How will USDA implement the recommendations from the 
Rural Prosperity Task Force?
    Answer. USDA Rural Development has a long track record of investing 
in broadband connectivity to offer the same access to rural America 
that urban areas currently enjoy. By focusing on indicators that 
improve the quality of life--including connections to education, health 
care and community services--combined with delivering skills to support 
a productive, growing workforce and innovation, we can build stronger 
rural economies. The Agriculture and Rural Prosperity Task Force report 
was issued in January 2018 and outlined five objectives and recommended 
actions for achieving e-connectivity for rural America: (1) Establish 
Executive Leadership to Expand E-connectivity Across Rural America, (2) 
Assess the State of Rural E-connectivity, (3) Reduce Regulatory 
Barriers to Infrastructure Deployment, (4) Assess the Efficacy of 
Current Programs, and (5) Incentivize Private Capital Investment.
    Continuing with a similar multi-agency approach that the 
Agriculture and Rural Prosperity Task Force used, USDA is collaborating 
with the Department of Commerce, the Department of the Interior, the 
General Services Administration, and other Federal agencies on the Task 
Force recommendations through the work of the Broadband Interagency 
Working Group. Preliminary work is underway, including work to execute 
recommendation No. 3 on reducing regulatory barriers--President Trump 
has signed an Executive Order (https://www.whitehouse.gov/presidential-
actions/presidential-executive-order-streamlining-expediting-requests-
locate-broad
band-facilities-rural-america/) and a Presidential Memorandum (https://
www.usda.gov/media/press-releases/2018/03/14/secretary-perdues-
prepared-opening-statement-rural-infrastructure) that all relevant 
agencies have begun work to fulfill.

    Question 2. What steps can be taken administratively within the 
Rural Utilities Service to help streamline the application process for 
the telecom loan programs? Would changes in statute help aid in this 
process?
    Answer. USDA Rural Development is constantly looking at ways to 
improve and streamline the application process. For example, in 2015, 
the Rural Utilities Service started accepting loan applications on-line 
which assists applicants in ensuring that all parts of an application 
are completed and makes it easier for applicants to understand the 
requirements of the programs. In FY 2018, we are making some changes in 
the funding announcement for the farm bill Broadband Loan Program which 
will improve how applications are submitted and processed with the goal 
of getting more funds out to rural America as quickly as possible. With 
the FY 2018 Notice for the Broadband Program, we are now accepting 
applications on a rolling basis throughout the FY and will periodically 
rank them for processing every 90 days giving priority to the 
applications that propose to serve the most unserved households. This 
rolling process with periodic evaluations will allow us to better 
interact with the applicants and make more applications acceptable. 
USDA welcomes further suggestions of changes that help aid in loan 
program processes.

    Question 3. How does lack of access to rural broadband play into 
the overall outlook for our rural and farm economies?
    Answer. Rural e-connectivity, or broadband, supports economic 
development for the whole nation through access to capital and global 
markets, job training and workforce development, innovation and 
technology and enhanced quality. ``e-Connectivity'' is the digital 
superhighway of our nation's economy and so much more than just 
connecting households, schools, and healthcare centers to each other as 
well as the rest of the world through high-speed Internet. It is the 
21st Century productivity tool for farms, factories, forests, mining, 
and businesses. E-connectivity for rural America is essential for 
ensuring America's economic competitiveness and enabling all Americans 
to be plugged in to a world of opportunity.
    Without adequate broadband service, farmers and rural communities 
are not able to be as productive and efficient which slows economic 
growth. Additionally, rural families without broadband suffer as 
schools at all levels are requiring online access. Homework assignments 
are now dependent on a broadband connection. Children whose household 
does not have a broadband connection are forced to travel to a local 
library or WiFi hotspot to complete homework assignments.
    High-speed Internet also provides access to real productivity 
increases through precision agriculture, enhanced educational 
opportunities, and broader and more efficient access to markets. With a 
broadband connection, someone in a rural area can manufacture and sell 
their products simply by advertising on-line. Without the broadband 
connection, it gets expensive very quickly when trying to advertise in 
papers and magazines and this type of advertising is not as efficient 
as on-line advertising. Additionally, broadband connection allows a 
business in a rural area to participate in the global marketplace. 
Without broadband, customers may be limited to the surrounding areas.
School Lunch
    Question 4. In your short tenure, you have already made great 
strides to improve the school lunch program, which is incredibly 
important to my constituents. I look forward to working with you to 
provide more long-term flexibility and certainty to USDA school lunch 
and breakfast programs.
    Can you briefly outline the key reforms you have made thus far to 
the program and any planned or potential reforms moving forward?
    Answer. USDA seeks to offer school meals that are nutritious, 
tasty, and wholesome and to provide streamlined procedures and 
regulatory relief for program operators. Recent actions demonstrate our 
commitment:

  <bullet> The May 1, 2017 ``USDA Commitment to School Meals'' 
        proclamation propelled our efforts to provide targeted 
        flexibilities and regulatory relief in the School Meal 
        Programs. Following the Proclamation, we issued policy guidance 
        providing flexibilities for milk, whole grains, and sodium 
        requirements for School Year (SY) 2017-2018 and began the 
        process to amend the regulations to allow long-term 
        flexibility.

  <bullet> On November 30, 2017, we issued the interim final rule, 
        ``Child Nutrition Programs: Flexibilities for Milk, Whole 
        Grains, and Sodium Requirements'', to ease regulatory 
        requirements and help Program operators serve nutritious and 
        appealing meals that reflect local preferences, consistent with 
        the intent of the May 2017 Proclamation. This regulation allows 
        operators to offer more choices in the type of milk they serve, 
        recognizes the need for flexibility for whole grain-rich 
        products, and maintains sodium Target 1 for SY 2018-19. The 
        interim final rule will be followed by a final rule scheduled 
        for fall 2018.

  <bullet> On March 6, 2018, we issued the proposed rule ``Hiring 
        Flexibility under Professional Standards'', which is intended 
        to remove barriers that limit the pool of qualified local and 
        state directors for the School Meal Programs. The proposed rule 
        would expand the range of experience and training that is 
        required to serve as a food service director, reflecting the 
        fact that the expertise needed to serve great school meals can 
        come not only from training and education, but also from real-
        world experience. The comment period for this proposed rule 
        ended May 7, 2018; We are now beginning development of the 
        final rule.

  <bullet> On December 17, 2017, we issued a Request for Information 
        regarding ``Food Crediting in Child Nutrition Programs''. The 
        comment period closed on April 23, 2018. We will use the 
        feedback gathered from stakeholders to determine, what, if any, 
        changes need to be made to food crediting.

    Child Nutrition Programs play a critical role in ensuring that 
millions of America's children have access to the nutritious food they 
need to learn and succeed in the classroom. USDA looks forward to 
continuing to work with Congress and interested stakeholders to 
determine additional regulatory reforms that are needed in these 
programs while ensuring standards are commonsense and are workable for 
states and local schools.

    Question 5. Based on your experience thus far, what type of 
legislative changes would help you accomplish your goals for the School 
Lunch Program?
    Answer. USDA is committed to these critical programs, and to 
ensuring that our partners in states and local schools have the tools 
and flexibility they need to provide nutritious meals and great service 
to their student customers, while promoting operational integrity. We 
look forward to working with Congress on Child Nutrition 
reauthorization and other legislation to improve the programs based on 
these important principles. USDA continues to examine regulatory 
changes to improve the program. USDA welcomes further discussions with 
Congress and interested stakeholders on this topic.
Meat Processing
    Question 6. I appreciate your focus on reducing unnecessary Federal 
burdens on job creators. I have been working with small meat processors 
in my district and their regulators FSIS to make sure we maintain high 
food safety standards along with smart regulations that don't push good 
businesses out of the market and create large barriers to entry. The 
local food movement is great for Missouri agriculture, and I hope you 
will work with me to ensure FSIS regulations are consistent and as 
minimally invasive to businesses as possible while maintaining world 
class food safety standards.
    Will you commit to working with me on addressing issues facing 
small and very small processors?
    Answer. Yes, I wish to reduce unnecessary regulatory burdens.

    Question 7. Has the USDA identified any specific administrative or 
legislative options that will improve the working relationship between 
USDA inspectors and the regulated community?
    Answer. Small and very small plants make up more than 90% of the 
6,000 federally-inspected plants, and I am committed to improved 
customer service for these establishments. Beginning in FY 2018, FSIS 
has committed that its Enforcement, Investigations and Analysis 
Officers (EIAOs) will increase to 25 percent of the time spent for 
outreach to small and very small plants, to make sure they understand 
compliance requirements, can get answers to any questions, and to 
strengthen relationships with the establishments.

    Question 8. What is the USDA currently doing to ensure small and 
very small processors looking to enter the market can receive the 
technical assistance necessary to navigate the Federal bureaucracy?
    Answer. USDA recognizes the unique needs of small and very small 
processors and those looking to enter the market and has a dedicated 
Small Plant Help Desk ready to assist. Its contact information is 
available on the FSIS website. As part of my commitment to improve 
customer service across USDA, in December 2017, FSIS also updated the 
resources available for small and very small establishments on its 
website to make it easier to navigate. We also encourage individuals to 
reach out to the FSIS District Offices in their area for assistance, as 
well as to the Enforcement, Investigations and Analysis Officers 
(EIAOs). Additionally, the District Offices have a District Veterinary 
Medical Specialist (DVMS) who can be contacted with humane handling 
questions.
Submitted Questions by Hon. Jeff Denham, a Representative in Congress 
        from California
    Question 1. Secretary Perdue, the California dairy industry 
continues to face hardship and rock-bottom prices. They are still 
waiting for completion of the years-long Federal Milk Marketing Order 
process. Now we are told the process cannot move forward until the 
Supreme Court rules on an ongoing case concerning administrative law 
judges. Such a ruling is not expected until June 30 of this year.
    Our dairy producers have been very patient and cooperative during 
this long process. You can understand the frustration felt by me and my 
fellow California representatives, as we watch the state continue to 
lose production and farms--completely opposite of the nationwide trend. 
Preparations for the 2018 Farm Bill are already underway, but we still 
have this unfinished business from the 2014 Farm Bill.
    Can you provide insight as to why USDA made the decision to release 
a proposed rule to announce this delay that's tied to a pending Supreme 
Court decision? Why the announcement was made this way?
    Should any of USDA's existing rules be impacted by the outcome of 
the case, does your agency have contingency plans to address it?
    During your last appearance before this Committee, we received 
assurances that the Marketing Order would be completed by end of 2017. 
Would you again commit to working with the industry, to ensure our 
producers see solutions and relief as soon as possible?
    Answer. On February 6, 2018, USDA posted a notice of delay in the 
California Federal Milk Marketing Order (FMMO) rulemaking proceedings 
due to the pending case before the United States Supreme Court in Lucia 
v. Securities Exchange Commission, 868 F.3d 1021 (D.C. Cir 2017) (en 
banc) (per curiam). In order for the California FMMO to proceed with 
rulemaking proceedings as expeditiously as possible, an independent de 
novo review of the hearing record was required to either ratify or 
modify any decision made by the Administrative Law Judge in the 
previous proceeding. USDA communicated these actions in the Federal 
Register in order to comply with ex parte prohibitions under the 
Administrative Procedures Act.
    USDA is not aware of any other rules that will be impacted by the 
pending Supreme Court case. I commit to continuing to work with 
industry to develop solutions as soon as possible. On March 30, 2018 we 
published in the Federal Register a final decision to establish a 
Federal Milk Marketing Order for California. As required under Federal 
Milk Marketing Orders, USDA is conducting a voter referendum among 
California dairy producers to determine whether they support the final 
decision. The referendum vote is being held from April 2, 2018 through 
May 5, 2018. USDA held a public hearing on Tuesday, April 10, 2018 in 
Clovis, California with stakeholders to answer questions related to the 
proposed Order and how eligible dairy producers can participate in the 
referendum. USDA will continue to work with our California dairy 
partners on this issue and will receive the results from the referendum 
in early June.

    Question 2. As a Member of the House Transportation and 
Infrastructure Committee, I was pleased to see the Administration's 
preliminary infrastructure framework proposes a grant program for rural 
America. This country has long needed innovative improvements and 
solutions to bring our economy and society into the 21st century.
    One area of note is that of rural water development.
    Could you provide insight into the Department's expertise in 
administering infrastructure grant programs and what role it expects to 
play, as this framework continues to be fleshed out in Congress?
    Answer. The USDA role in rural infrastructure is longstanding--the 
predecessor of the Rural Utilities Service was the first investor in 
rural connectivity to electricity and telephone service, and such 
programs continue today. USDA Rural Development invests billions of 
dollars each year in rural infrastructure projects, from water 
utilities to modernizing rural America's electric grid to expanding 
broadband access. USDA has $57 billion of outstanding loans in rural 
infrastructure, all with less than a 1.3% default rate. These 
investments include nearly $13 billion in water, wastewater and solid 
waste projects, with many of these projects relying on a grant portion 
of the funding awards to make clean water possible in rural 
communities. We are working with public and private partners to 
leverage funding that will help rural systems build capacity and 
sustainability. The Rural Utilities Service also awards approximately 
$27 million in grants from annual appropriations for broadband 
infrastructure deployment in America's most remote and under-served 
communities through the Community Connect Program. The FY 2018 Omnibus 
Bill also contained funding to support new investments in broadband, 
with an additional $600 million in funds appropriated to the USDA for a 
new broadband loan and grant pilot program. We are working diligently 
to develop the best way to administer these funds and ensure the new 
program provides the most benefit to the rural communities we serve.

    Question 3. It is no secret that the recent tax reform passed by 
Congress has intentionally created a new complication for the industry 
as a whole.
    Given the state of the rural economy, coupled with your firsthand 
observations, could you comment on how important a resolution to the 
Section 199A matter is for rural America and the agriculture industry?
    Answer. As Under Secretary Ibach stated in January, ``The aim of 
the Tax Cuts and Jobs Act was to spur economic growth across the entire 
American economy, including in the agricultural sector. While the goal 
was to preserve benefits in Section 199A for cooperatives and their 
patrons, the unintended consequences of the current language 
disadvantage the independent operators in the same industry. The 
Federal Tax Code should not pick winners and losers in the marketplace. 
We applaud Congress for acknowledging and correcting the disparity.''

    Question 4. Mr. Secretary, the almond export industry is one of 
California's top economic drivers. Unfortunately, it continues to be 
challenged in its relations with India--specifically ongoing smuggling 
through Pakistan and deliberate mislabeling.
    Could you provide an update as to what USDA is doing to ensure 
fairness and transparency with this key trade partner?
    What about USDA's work with the U.S. Trade Representative on this 
issue?
    Answer. USDA has urged India to strengthen border control of 
agricultural goods and is also working in strong partnership with the 
U.S. almond industry, including the Almond Board of California and Blue 
Diamond Growers, to dramatically increase U.S. almond sales to India. 
In fact, U.S. almond exports to India climbed from $180 million in 2008 
to a record $660 million in 2017, making India our largest export 
market for almonds, worldwide.
    The recent Senate confirmation of the Chief Agricultural Negotiator 
in the Office of the U.S. Trade Representative enhances USDA's ability 
to collaborate on agricultural market issues such as these where we 
believe that the Government of India has the ability to remove the 
incentive for smuggling and counterfeiting by lowering tariff rates for 
high demand U.S. agricultural products. USDA will work closely with the 
USTR Agricultural Negotiator to ensure this is on his radar as he gets 
up to speed in his new role.
Submitted Questions by Hon. Don Bacon, a Representative in Congress 
        from Nebraska
    Question 1. What is your assessment of FMD vaccine and how can we 
best work to prevent FMD from becoming a devastating problem for our 
livestock producers?
    Answer. A three-legged stool approach that encompasses a vaccine 
bank, preparedness, and prevention model would improve our preparedness 
and response capabilities for FMD and other foreign animal diseases. 
USDA takes the threat of FMD very seriously, and we will work with 
Congress, states, and industry to ensure that we are all prepared for 
this disease or any other foreign animal disease. APHIS has 
acknowledged a gap in its current FMD vaccine capabilities and they 
have had conversations with their partners about ways to address that 
gap. We certainly look forward to continuing those conversations.

    Question 2. Secretary Perdue, Agri-Pulse has been running an 
article series recently on gene editing in agriculture. In an article 
just last week titled ``Protecting the Herd: New Opportunities Through 
Gene Editing'', the article detailed a pig variety that through simply 
deleting one gene already present in a pig--something that could easily 
happen in nature, though it could take years or decades to produce--
they can make pigs resistant to a horrible disease called PRRS (porcine 
reproductive and respiratory syndrome). This disease is devastating to 
pigs, and costs North American pig farmers more than $600 million every 
year.
    Yet, the article detailed how the product is having trouble coming 
to market, because FDA wants to treat this product and other gene 
edited animals as ``animal drugs'' and require very heavy regulation as 
a drug. Mr. Secretary, our farmers, consumers, and the animals 
themselves could immensely benefit from treatments like this. Has USDA 
engaged with FDA, or are there plans to engage, to get them to revise 
their approach so that products like this have an appropriate pathway 
forward?
    Answer. I agree that the Federal role should be to regulate these 
products in a way that allows them to come to market quickly and 
safely. We support science-based policy that does not stifle innovation 
or impede the development of successful new products. USDA is currently 
evaluating gene-editing animal biotech and options for addressing 
regulatory challenges that may be limiting agricultural innovation. We 
intend to engage FDA on these issues as this evaluation evolves.
Submitted Questions by Hon. Timothy J. Walz, a Representative in 
        Congress from Minnesota
    Question 1. Mr. Secretary, the USDA recently announced that they 
would be canceling funding for BPI payments to companies that are 
refining biofuel in the United States from certain domestically grown 
feedstocks converted to drop-in biofuel for delivery to supply biofuels 
to the Navy. The Navy is supportive of the program and BPI payments. 
The program has numerous benefits, among them promotion of homegrown 
renewable fuel. Can you explain why exactly the USDA has made this 
decision in contravention of the benefits and support of our armed 
services?
    Answer. USDA, in consultation with its agency partners and the 
Office of Management and Budget, determined that the cost of 
implementation of these initiatives significantly outweighed the 
benefits to taxpayers. The Navy was supportive of this decision. As 
part of our efforts to ensure fiscal responsibility, we discontinued 
these programs; however, USDA will continue to make payments under 
existing commitments.

    Question 2. In the Department's Farm Bill Legislative Principles 
document you highlighted the importance of conservation programs--
particularly those that benefit soil health, water and air quality and 
other natural resources. However, overall funding for conservation 
programs was substantially reduced in the 2014 Farm Bill. Funding for 
ACEP, for example, was cut in half between Fiscal Year 2017 and 2018. 
Consequently, USDA and its agencies have fewer resources to assist 
private landowners in preserving working lands. The next farm bill 
presents an opportunity to restore funding for programs, like ACEP, 
which were reduced in the 2014 bill. Would you support restoring 
funding for conservation programs so that our farmers and ranchers can 
continue to work the land and produce the food and fiber that we all 
depend upon?
    Answer. The Department looks forward to working with the House and 
Senate Agriculture Committees to provide technical assistance and 
programmatic insight during the farm bill process to improve all of 
USDA's resources available to farmers, including NRCS- and FSA-
implemented conservation programs.

    Question 3. Mr. Secretary, we have seen the very positive benefit 
biofuels have had on our farm economy and rural communities. In fact, 
many Minnesotans would like to use even more biofuels in their 
vehicles. Can you please tell the Committee what the USDA is doing to 
ensure that a robust RFS is continued?
    Answer. FSA, along with our Rural Development agencies, NIFA, and 
ARS provide a suite of programs that support a robust RFS. FSA extended 
the Biofuel Infrastructure Partnership (BIP) through 2018, due to 
hurricane impacts and market changes. This extension allows for more 
time to fully construct the targeted installation of nearly 5,000 
higher-blend ethanol pumps and 400 tanks. These pumps and tanks are 
being installed in 1,538 fueling stations in 20 states. The extension 
also provided flexibility to the state grantees, allowing them a chance 
to respond to market demands and setting an increased total of over 
1,000 pumps for E15-E25.
Submitted Questions by Hon. James P. McGovern, a Representative in 
        Congress from Massachusetts
    Question 1. USDA has proposed converting about half of SNAP 
benefits for more than 80% of SNAP recipients into a food box. USDA 
says that on average that it can buy food at half the price as it is 
available on the retail market thereby allowing them to replace the 
lost benefits with a non-perishable food box and use the balance for 
deficit reduction. The proposal would also allocate $250m per year to 
state for the cost of shipping, warehousing, packing, shipping and 
establishing distribution centers for the food boxes. But, the budget 
does not provide an estimate of the administrative costs associated 
with the proposal. And, the budget would also cap state administrative 
expenses. So there is no estimated increase in state administrative 
expenses associated with the Harvest Box administrative and 
distribution overhead. The budget assumes states and private networks 
would absorb these costs. TEFAP and CSFP provide administrative 
overhead that ranges from 14% to 33% while program operators claim is 
it much higher. Can USDA provide an estimate of the costs to states, 
localities and private charities of operating this program? While those 
costs would not be borne by the Federal Government, policy makers need 
to understand the full implications of the proposal.
    Answer. America's Harvest Box is a bold, innovative approach to 
providing nutritious food to those in need. USDA has estimated that the 
proposal will save taxpayers approximately $129 billion over the 10 
year period between Fiscal Year (FY) 2019 and FY 2028. This estimate 
accounts for about $2.5 billion annually in additional administrative 
funds for states, which states can use to provide funding to public 
and/or private partners. It assumes administrative costs at a similar 
scale to the existing Commodity Supplemental Food Program (CSFP), which 
currently serves approximately 600,000 elderly participants across 48 
states.
    States will be given substantial flexibility on how to distribute 
these food benefits to participants. States can distribute America's 
Harvest Boxes through existing infrastructure, public-private 
partnerships, or choose to deliver directly to residences through 
retailers or commercial delivery services. Direct delivery has shown to 
be an appealing option for both rural states and urban areas with food 
access issues.
    This proposal combines the best elements of SNAP and the USDA Foods 
programs. America's Harvest Boxes allow states the opportunity for 
participants to have a choice in selecting components of the box, while 
some states may choose to include additional items, such as fresh 
fruits and vegetables, through public-private partnerships. The 
remainder of the SNAP benefit will continue to be available through 
Electronic Benefit Transfer (EBT) cards to purchase food at approved 
retailers.
    While the proposal that has been presented offers a useful starting 
point for discussion, this bold proposal will require innovative 
thinking from many sectors. We are continuing to hear from the private-
sector about their innovative ideas regarding access to food. USDA 
welcomes creative approaches to address the needs of SNAP participants 
and looks forward to working with Congress to consider impactful and 
cost-effective strategies to serve those most in need.

    Question 2. In addition to USDA's Harvest Box proposal, the 
Department has included some $85 billion in SNAP cuts, including 
multiple cuts that would terminate benefits to millions of individuals. 
Would USDA please provide an estimate of the number of individuals that 
would have their benefits terminated (e.g., under the categorical 
eligibility, three ABAWD time limit provisions, minimum benefit and 
household cap proposal) as well as the number of people impacted and 
the average benefit cut under the remaining proposals such as the SUA 
changes?
    Answer. Under the President's 2019 Budget request, savings are 
achieved through a new proposal, America's Harvest Box which uses 
government purchasing power to buy food for some SNAP participants. It 
streamlines a number of programs to make them more efficient and 
effective, and also targets SNAP participation to households most in 
need. As unemployment continues to drop, and the economy continues to 
improve, our goal should be to structure our programs so that we can 
best help participants to move from SNAP to self-sufficiency in the 
long-term.
    Limiting ABAWD waivers to counties with an unemployment rate 
greater than ten percent would lead to approximately 1.7 million 
additional ABAWDs facing time limits in Fiscal Year 2019. This proposal 
will lead to a consistent method for states to utilize waiver authority 
that is directly tied to the economy. However, ABAWDs meeting work 
requirements, including those participating in work training programs 
will not lose their benefits.
    Limiting categorical eligibility to households receiving TANF cash 
assistance would affect about 3.2 million SNAP participants, or about 
eight percent of the SNAP caseload. Those currently qualifying for SNAP 
under broad based categorical eligibility (BBCE) will continue to 
qualify if they meet the current SNAP eligibility criteria. This 
proposal would establish a nationwide policy to restore confidence that 
the pool of eligible applicants is consistent with SNAP eligibility 
limits.
    Establishing a national standard for State Heating and Cooling 
Standard Utility Allowances (HCSUA) levels based on the 80th percentile 
of low-income households' utility costs would streamline variability 
across states and impact benefits for approximately 7.2 million SNAP 
households.
    Eliminating the minimum benefit would eliminate benefits for about 
1.5 million SNAP participants. Another 270,000 participants would 
receive a lower monthly benefit, which aligns the benefit level with 
the actual need of the individual in accordance with household 
circumstances. Capping the maximum benefit would reduce benefits for 
about 580,000 participants.
Submitted Question by Hon. Michelle Lujan Grisham, a Representative in 
        Congress from New Mexico
    Question. Secretary Perdue, on January 8, 2018, President Trump 
expressed his desire to find ways to expand rural broadband access 
while speaking at the American Farm Bureau in Nashville, Tennessee. 
That same day, the President signed an Executive Order directing his 
Administration to use ``all viable tools to accelerate the deployment 
and adoption of affordable, reliable, modern high-speed broadband 
connectivity in rural America.'' Just 2 weeks ago, the United States 
Department of Agriculture (USDA) released its farm bill priorities 
which included a desire to, ``Expand and enhance the effectiveness of 
tools available to further connect rural American communities, homes, 
farms, businesses, first responders, educational facilities, and 
healthcare facilities to reliable and affordable high-speed Internet 
services.'' I agree. Finding ways to increase broadband access in rural 
America should be a key part of the farm bill.
    Broadband increases economic activity, produces jobs, enables 
telehealth services and improves health outcomes, increases crop 
yields, and so much more. Today, anyone without broadband access faces 
significant challenges to competing in a modern economy. Unfortunately, 
rural and frontier states, like my home state of New Mexico, have 
limited broadband service. In 2015, the Federal Communications 
Commission (FCC) reported that 61% of New Mexicans living in rural 
areas lacked fixed (wired) broadband access. Overall, 39% of Americans 
living in rural areas (23.4 million people) lack access to high speed 
broadband, and access is even worse in Tribal lands where 80% of the 
population does not have access to fast broadband.
    Members of this Committee on both sides of the aisle share your 
goal of expanding broadband access in rural America. Secretary Perdue, 
as we draft the next farm bill, do I have your commitment to work with 
me and the House Agriculture Committee to promote the expansion of 
broadband access in rural America?
    Answer. Yes, we at USDA will provide any technical assistance 
requested by the House Agriculture Committee during development of the 
farm bill, for the purpose of supporting expanded and enhanced tools to 
further connect rural American communities, homes, farms, businesses, 
first responders, educational facilities, and healthcare facilities to 
reliable and affordable high-speed Internet services.
Submitted Questions by Hon. Stacey E. Plaskett, a Delegate in Congress 
        from Virgin Islands
    Question 1. The Administration's infrastructure plan released on 
February 12 calls for ``$200 billion in Federal funds to spur at least 
$1.5 trillion in infrastructure investments with partners at the state, 
local, Tribal, and private level.'' In addition, ``$50 billion of the 
$200 billion in direct Federal funding will be devoted to a new Rural 
Infrastructure Program to rebuild and modernize infrastructure in rural 
America.''
    The legislative outline of the plan further adds that ``[a] portion 
of the Rural Infrastructure Program funds would be set aside for Tribal 
infrastructure and territorial infrastructure, with the remainder 
available for states.''
    Will the Department of Agriculture be the Federal agency 
administering this $50 billion Rural Infrastructure Program?
    Answer. We look forward to working with Congress to determine the 
most appropriate way to administer the Rural Infrastructure Program. 
Regardless of the administering agency, the President's proposal 
envisions that funds under the Rural Infrastructure Program would be 
provided to the governor of each state as a block grant via formula 
distribution.

    Question 2. How much of the $50 billion in Rural Infrastructure 
Program funding would be set aside for territorial infrastructure?
    Answer. A portion of the Rural Infrastructure Program funds are 
proposed to be set aside for Tribal infrastructure and territorial 
infrastructure. Of the $50 billion identified for rural infrastructure, 
$1 billion will be set aside for Tribal areas and territories.

    Question 3. How would the total amount of funding set aside for 
territorial infrastructure be apportioned among each of the 
territories?
    Answer. The apportionment of the dedicated funding for addressing 
infrastructure needs of U.S. Territories Rural Infrastructure Program 
would be dependent on Congressional authorization and appropriation of 
funding for the program.
Submitted Questions by Hon. Al Lawson, Jr., a Representative in 
        Congress from Florida
    Question 1. In the mid-1980s, I understand that the Secretary of 
Agriculture during the Reagan Administration created a USDA/1890 Land-
grant University Task Force to identify priorities that would enable 
the 1890 universities to participate more actively in USDA programs and 
contribute to increasing the diversity of the USDA workforce.
    This task force was very effective and allowed the universities to 
become more engaged with many USDA agencies. Many innovative and 
successful programs were implemented. The Task Force has been 
nonfunctional for the past 2-3 years--during the 2016 election year and 
your first-year transitioning into the role as Secretary.
    I am hopeful that you will reimplement and rejuvenate this Task 
Force with the appropriate leadership structure to ensure success and 
sustainability. Have you given this any consideration and can we work 
on this effort together? The President of Langston University, Kent 
Smith, who is in or near Congressman Lucas' district is the current 
chair of the 1890s group and would be happy to work with you and your 
team to stand this Task Force up again.
    Answer. We agree that this task force is an effective and important 
link between the 1890 Land Grant Universities and USDA agencies. We are 
currently in the process of identifying representatives in order to 
stand up the task force and appreciate your suggestion to work with the 
President of Langston University, Kent Smith, we will be sure to 
contact him.

    Question 2. The current farm bill authorizes 20% of Smith-Lever 
funds be appropriated for 1890 Extension programs and 30% of Hatch 
funds be appropriated for 1890 Research programs. Currently, the 1890 
Extension program receives 15% and 1890 Research receives 25% of Hatch 
funds. So, both are 5% short.
    Will the Administration support the 1890 universities receiving 
full funding at the authorized levels?
    Answer. USDA is committed to our 1890 land-grant university 
partners and will continue to implement 1890 grant programs at the 
levels legislated by the Congress.

    Question 3. Mr. Secretary, thank you for being here and for 
promoting the focus on developing rural communities and economies 
through the farm bill. In my district in northern Florida, we have a 
robust forestry industry, which represents a key economic driver for 
our communities and employs close to 2,000 people. These private acres 
filter our water, provide habitat for species, and produce the raw 
materials for 77 manufacturing facilities throughout Florida, infusing 
$16 billion into our state's economy. I was pleased to see that the 
agency's framework for the farm bill included addressing healthy forest 
management and incentivizing private stewardship of forests. One way to 
achieve this is to expand and promote new, innovative markets for 
forest products. Can you confirm USDA's support for research and 
development of these innovative products that can create new jobs and 
new enthusiasm for this traditional industry?
    Answer. I am very interested in new, innovative products made from 
wood that can help create new jobs and new uses for wood from our 
nation's forests. As I emphasized in my farm bill principles, my aim is 
to increase coordination with states to promote job creation and 
improve forest health through shared stewardship and stakeholder input.

    Question 4. Federal policies, such as those created and supported 
through farm bill programs, have a significant impact on the ability of 
private forest owners to manage their land effectively. The industry 
took a significant hit during the Great Recession, from which it has 
still not fully recovered. Industry is a natural partner to the Forest 
Service given that wildfires, insects, and invasive species do not 
recognize the boundaries of Federal vs. private forests. Through the 
Good Neighbor Authority, the Forest Service is already partnering with 
states for similar purposes. To better combat these threats, forest 
owners of all kinds must have somewhere to move their wood from 
hazardous fuel reduction and other forest health management techniques. 
To that end, how do you see USDA and the Forest Service working with 
private landowners to tackle the problems that are facing our forests?
    Answer. As I emphasized in my farm bill principles, I am committed 
to offering tools and resources that incentivize private stewardship 
and retention of forestland. The Forest Stewardship program at the 
Forest Service plays a central role in assisting private landowners--
who own more than \2/3\ of our nation's forests--in addressing their 
most pressing resource management concerns.

    Question 5. Now that the Federal agriculture relief package for 
Florida agriculture has been approved, how quickly do expect a program 
to be up and running and receiving this badly needed relief to Florida 
farmers? Days? Months?
    Answer. USDA is working to provide the disaster assistance as 
expeditiously as possible and sign-up for the new program, authorized 
by the Bipartisan Budget Act of 2018, will begin no later than July 16. 
We will first roll out the program parameters as we begin to finalize 
necessary regulations and develop software to provide meaningful 
assistance to affected producers. For some existing programs that were 
changed by the Bipartisan Budget Act of 2018 and that do not require 
regulatory changes, we expect to begin making payments within weeks.

    Question 6. USDA-FNS cites that SNAP trafficking has dropped to 25% 
of the levels in 1993. In addition, GAO has found that from 2006 to 
2016 SNAP had an improper payment rate of only between 3.2 and 5.8 
percent. Mr. Secretary in your 2018 Farm Bill & Legislative Principles 
you said that you are looking to reduce waste, fraud, and abuse within 
Food, Nutrition, and Consumer Services. Can you explain the reasoning 
behind why you did not highlight any high-risk programs in the FSA as 
targets to reduce abuse but highlighted FNS programs?
    Answer. Since taking office, I have been working hard to crack down 
on fraud and abuse in all our various agencies and programs while 
ensuring we provide excellent customer service to those that need our 
assistance. That said, this area was highlighted given the significant 
total dollars being provided to our stakeholders through these FNCS 
programs, which equates to nearly 70% of USDA spending.

    Question 7. In USDA's FY 2019 budget it outlines over $500 million 
in cuts to Water and Wastewater Grant Programs in our rural 
communities. Can you explain how these cuts will affect rural 
communities' ability to grow their economies?
    Answer. The budget made some very difficult choices to control 
spending and to ensure water projects are coordinated with other 
Federal programs like the Environmental Protection Agency's (EPA) state 
revolving fund. Improved targeting of Federal water funding, 
elimination of regulatory barriers, support for existing stakeholders, 
development of new partnerships and enactment of infrastructure 
investment legislation will contribute to rural prosperity. I look 
forward to working with the Committee on these and other innovative 
ways to meet the water needs of rural America.

    Question 8. In USDA's FY 2019 budget it outlines a $32 million cut 
to specialty crop pests support in the plant health section of APHIS. 
Can you explain how this will affect the specialty crop industry?
    Answer. Several of the reductions are intended to better balance 
the portion of the costs of these programs borne by the Federal 
Government. These include the reductions to the glassy-winged 
sharpshooter (GWSS), European grapevine moth (EGVM), and pale cyst 
nematode programs.
    If cooperators are able to increase their contributions towards the 
efforts, there will be no impact to the current programs. If they are 
unable to increase their contributions, we will work with the 
cooperators to determine how best to leverage the resources available 
to continue program activities. The remaining decreases bring funding 
back to the FY 2016 funding level for the Fruit Fly Exclusion and 
Detection and Citrus Health Response Programs (CHRP).

    Question 9. In USDA's FY 2019 budget it outlines a $29 million cut 
to tree and wood pests support in the plant health section of APHIS. 
Can you explain the effects of these cuts?
    Answer. The reduction to APHIS' tree and wood pest programs is 
intended to better balance the portion of the costs of these programs 
borne by the Federal Government and would reduce the Federal cost-share 
to 50 percent. If cooperators are unable to increase their 
contributions, USDA would reduce the rate at which it conducts surveys 
for these pests and would reduce control measures in the field. APHIS 
would continue to evaluate program activities and identify the highest 
priorities with state partners.

    Question 10. In USDA's FY 2019 budget it outlines the elimination 
of the Food Insecurity Nutrition Incentive Program (FINI grants), can 
you explain the rationale behind cutting this funding?
    Answer. Authorization for this farm bill mandatory program expires 
at the end of FY 2018 and therefore was not included in the President's 
FY 2019 Budget request.

    Question 11. Can you give a breakdown of total funding provided to 
each category of land-grant institutions over the last twenty years? 
Simply give the following three numbers: (1) All USDA funding that went 
to the 1862 institutions over the last twenty years, (2) All USDA 
funding that went to the 1890 institutions over the last twenty years, 
and (3) All USDA funding that went to the 1994 institutions over the 
last twenty years.
    Answer. USDA obligations for the 1862 institutions from FY 1998 to 
FY 2017 was approximately $13.5 billion. Obligations for the 1890 
institutions for the same period was about $1.5 billion. Obligations 
for the 1994 institutions for the same period was approximately $262 
million. Please note that data prior to FY 2009 are incomplete and that 
final data for FY 2017 are not yet available.

    Question 12. In the proposed SNAP legislation, you cited that the 
USDA Foods Box will have ``the potential to reduce waste, fraud, and 
abuse.'' Please cite the data that used to take this position?
    Answer. Today, we know that SNAP benefits administered through an 
EBT card carry risks of being misused through trafficking--the sale of 
benefits for cash--and other program violations. While the SNAP 
trafficking rate is low, we do have many systems in place to catch 
violators and we are continuously looking to improve those efforts. 
Currently, USDA Foods are provided in ready-to-use form to 
participating households, which reduces, but does not eliminate, 
opportunities for benefits to be diverted for other purposes. While we 
have not conducted a formal study on the impact of America's Harvest 
Box on fraud or waste, we estimate that using the boxes will have a 
positive impact because of the nature of the benefit.

    Question 13. In the proposed legislation there is now a delivery 
mechanism for the USDA's Harvest Boxes. Can you explain the 
administrative plan that will be used to prepare these boxes and 
deliver these packages as these will be going out to 81% of SNAP 
households, tens of millions of Americans, starting on October 1, 2018?
    Answer. As is currently done for other USDA nutrition assistance 
programs, USDA would purchase staple, shelf-stable foods (such as 
shelf-stable milk, juice, grains, ready-eat-cereals, pasta, peanut 
butter, beans, canned meat, poultry or fish, and canned fruits and 
vegetables) and have them delivered to states. SNAP state agencies 
would be responsible for the administration of the program at the state 
level and would have substantial flexibility in doing so. USDA would 
partner with states to determine the most efficient food box 
distribution model which they could then utilize to implement the 
program.
    While the proposal that has been presented offers a useful starting 
point for discussion, this bold proposal will require innovative 
thinking from many sectors. USDA welcomes creative approaches to 
address the needs of SNAP participants and looks forward to working 
with Congress to consider impactful and cost-effective strategies to 
serve those most in need.
Submitted Questions by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question 1. My colleague, Congressman Neal Dunn, and I sent a 
letter to USDA, FDA, and EPA on October 17, 2017 stressing the 
importance of interagency coordination on the regulation of 
biotechnology. Recently, USDA and FDA entered into a formal agreement 
focused on strengthening interagency coordination on critical topics 
such as biotechnology and food safety. Can you elaborate on what you 
see as USDA's role in this relationship, how the two agencies will 
coordinate moving forward, and the intended goals of this agreement?
    Answer. USDA oversees the safety of meat, poultry, catfish and 
processed egg products while the FDA has authority over all other foods 
such as dairy, seafood, produce and packaged foods. USDA and FDA are 
partnering in many key areas, including the implementation of produce 
safety measures and biotechnology efforts.
    This agreement is the agencies' newest initiative to expand those 
efforts and take new steps to streamline regulatory responsibilities 
and use government resources more efficiently to protect public health. 
It aims to increase clarity, efficiency, and potentially reduce the 
number of establishments subject to the dual regulatory requirements of 
the USDA and the FDA. USDA and FDA are currently establishing the 
workgroups enumerated in the agreement to ensure action is taken as 
soon as possible.

    Question 2. USDA recently released their ``2018 Farm Bill & 
Legislative Principles'' document. Under the ``Research, Education, and 
Economics'' section, you note that you want to ``commit to a public 
research agenda that places the U.S. at the forefront of food and 
scientific development.'' However, China has been outspending the U.S. 
for almost a decade on investments in agriculture research. To remain 
competitive, I believe that we should be making strong, strategic 
investments in both basic and applied agriculture research. This is 
especially true in our specialty crop industry as we work to cope with 
labor shortages, improve pest management, and strengthen soil health. 
What do you believe is needed in the 2018 Farm Bill's research title to 
put the U.S. back at the forefront of agriculture research? Should 
Congress be devoting more resources to domestic, public agriculture 
research?
    Answer. In the next 50 years, agriculture will be called upon to 
produce more food than in the previous 10,000 years combined with 
little or no increase in the amounts of arable land, water or resources 
available. The efficiencies and increased productivity needed to meet 
these agricultural challenges cannot be achieved without a renewed 
focus on agriculture research. I support research to advance the 
competitiveness of U.S. agriculture and promote food security. Broad 
research priority areas should be established, such as for more 
efficient water and nutrient use, improved health and resilience of our 
soils and production systems, genome mapping and enhanced breeding of 
specialty crops and food animals, enhanced nutritional and health 
benefits of food, and reduction of post-harvest losses. In addition, 
knowledge gained through research and education funded by USDA is 
brought directly to end users across America, including farmers and 
ranchers, and those in rural and urban communities through extension. 
Strengthening the Extension system will also help to create positive 
changes.

    Question 3. Organic production is extremely important to the 
agriculture industry of my district, particularly organic strawberry 
and leafy greens. In the ``2018 Farm Bill & Legislative Principles'' 
document issued by USDA, you state that Congress should ``protect the 
integrity of the USDA organic certified seal'' and ``ensure organic 
products meet consistent standards for all producers.'' I completely 
agree. What additional resources or authority does USDA need to do 
this? Additionally, what goals do you have for the organic program 
during your tenure as Secretary to support this sector?
    Answer. Protecting the integrity of the organic seal is something I 
strongly support. The President's Fiscal Year 2019 budget request 
includes an addition of $3 million for the National Organic Program 
(NOP). This increase would fund increased enforcement and technology 
investments for greater transparency and integrity. For example, NOP 
would allocate additional resources to conduct complaint 
investigations, complete supply chain audits in high-risk areas, and 
invest in technology improvements that implement electronic 
certificates and support traceability and accountability. Going 
forward, I want to place a strong emphasis on strengthening enforcement 
to protect the integrity of the label and allow for the industry to 
continue to grow.

    Question 4. As my district is home to a significant percentage of 
organic production, I appreciate the Department's recognition in the 
``2018 Farm Bill and Legislative Principles'' document of the need to 
protect the organic certified seal, one of the most recognizable food 
labels in the world. As the industry continues to grow, how is the 
Department positioning itself to capture and encourage technological 
advancements in the organic sector? Specifically, is there a role for 
the Department, and the National Organic Program, to take a more active 
role in setting standards at the front end to provide certainty for 
business investment, thus reducing the occurrence of proposed 
regulatory changes that seek to change decades of certain organic 
farming methods?
    Answer. The President's Fiscal Year 2019 budget request includes an 
addition of $3 million for the National Organic Program (NOP) to fund 
both enforcement activities and technology investments to protect the 
traceability of organic commodities for greater transparency and 
integrity. USDA will collaborate with other USDA agencies, such as 
APHIS and FAS, as well as Customs and Border Protection, to use 
enhanced technology for targeted oversight of organic products at ports 
of entry and in other countries, protecting U.S. producers.
    In terms of standards, USDA will continue to maintain the USDA 
organic regulation's National List of allowed and prohibited materials 
in organic agriculture. Other standards projects will focus on 
strengthening organic enforcement, to eliminate existing exclusions. 
For example, an exclusion in the current process allows entities that 
are not certified organic to handle importation paperwork or even take 
possession of an organic shipment. When this occurs, there is the 
potential that the chain of custody is interrupted which presents 
challenges for verifying an organic claim.

    Question 5. One of the challenges in oversight of existing organic 
production practices are sometimes inconsistent application of organic 
requirements by organic certifiers. How is the Department working to 
ensure more consistent certification procedures across varying regions?
    Answer. It is important that organic requirements be applied 
consistently across the country. USDA's National Organic Program (NOP) 
diligently works to ensure the consistent application of organic 
standards by certifiers through regular certifier audits, certifier 
training, and certifier instructions and policy memos.
    First, NOP audits its certifiers every 2.5 years to assess 
compliance with the USDA organic regulations and the NOP Handbook. When 
audits reveal inconsistencies in certifier implementation of 
requirements, the program issues non-compliances, which the certifier 
must address. Second, NOP provides annual face-to-face and periodic 
webinar trainings for certifier staff worldwide. Training topics 
specifically focus on areas where inconsistencies have been detected 
across certifiers. Third, NOP issues policy memos and instructions to 
certifiers when clarification of existing requirements is needed. For 
example, in October 2017, NOP published an interim instruction 
detailing requirements for certifiers who oversee organic products 
imported into the United States. The instruction:

  <bullet> Clarifies responsibilities for certifiers in the U.S. and 
        around the world;

  <bullet> Recommends best practices for reviewing and issuing import-
        related documents;

  <bullet> Highlights handling instructions needed to maintain the 
        integrity of the organic status for imported organic products; 
        and

  <bullet> Details required documentation and recordkeeping.

    Together, NOP's audits, training, and instructions increase 
consistency across the 80+ certifiers accredited to oversee organic 
certification in the United States and around the world.

    Question 6. Could you elaborate on the 4th bullet of the ``2018 
Farm Bill and Legislative Principles'' document under the ``Marketing & 
Regulatory Programs'' section regarding technologies scientifically 
required to ensure safety? Is that specifically referencing organic 
products, or rather all industries covered under the Marketing and 
Regulatory Programs mission area? Could you provide an example of a 
technology that has been stalled or prohibited in the past, even though 
required for safety?
    Answer. The 2018 Farm Bill and Legislative Principles state, 
``Ensure USDA is positioned appropriately to review production 
technologies if scientifically required to ensure safety, while 
reducing regulatory burdens.'' To improve life in rural communities, 
the President's Task Force on Agriculture and Rural Prosperity 
recommended over 100 items, including better harnessing technological 
innovation, such as biotechnology. In keeping with the Task Force's 
recommendations, USDA is considering an update to the Department's 
biotechnology regulations to modernize USDA's biotechnology regulatory 
framework. USDA envisions an approach that allows for these products to 
come to market quickly and safely. USDA wants a science-based policy 
that ensures the plant health safety of these products and does not 
stifle innovation or impede the development of successful new crop 
varieties.

    Question 7. I appreciate your emphasis on developing new export 
markets for U.S. agricultural products. It is a priority that we all 
share. USDA administers two farm bill programs that have a long running 
track record in facilitating export promotion and market development--
the Market Access Program (MAP) and the Foreign Market Development 
program (FMD). These public-private partnerships give American farmers 
a presence in key markets, having increased net farm income by $27.3 
billion and supported an additional 93,000 farm and food jobs since 
they were created. These programs are oversubscribed and funding has 
remained stagnant, which is why I am a cosponsor of the CREAATE Act, to 
increase funding for MAP and FMD. Last year, the President's FY 2018 
budget proposed to eliminate funding for these programs. In the 
President's FY 2019 budget, MAP is fully funded at $200 million yet 
other trade promotion programs like FMD and Technical Assistance for 
Specialty Crops are eliminated. Can you explain the rationale for the 
proposed cuts to these critical export programs?
    Answer. Authorization for MAP, FMD, and Technical Assistance for 
Specialty Crops (TASC) under the current farm bill expires in 2018. In 
general, the Congressional Budget Office (CBO) and OMB assume that 
expiring programs with mandatory spending of less than $50 million per 
year are discontinued; however, expiring programs with mandatory 
spending in excess of $50 million per year are assumed to be 
reauthorized by Congress. Accordingly, the CBO baseline assumes 
continuation of MAP at $200 million. However, programs such as FMD and 
TASC with mandatory spending below $50 million are not continued in the 
CBO baseline. Historically, USDA has followed the CBO convention and 
has done so for the purposes of the FY 2019 President's Budget.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
